<html>
<title> - IN SEARCH OF EDUCATIONAL EXCELLENCE IN THE NATION'S CAPITAL: A REVIEW OF ACADEMIC OPTIONS FOR STUDENTS AND PARENTS IN THE DISTRICT OF COLUMBIA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 IN SEARCH OF EDUCATIONAL EXCELLENCE IN THE NATION'S CAPITAL: A REVIEW 
    OF ACADEMIC OPTIONS FOR STUDENTS AND PARENTS IN THE DISTRICT OF 
                                COLUMBIA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2003

                               __________

                           Serial No. 108-30

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

88-196              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 9, 2003......................................     1
Statement of:
    Cafritz, Peggy Cooper, president, Board of Education; 
      Josephine Baker, executive director, District of Columbia 
      Public Charter School Board; Casey J. Lartigue, Jr., 
      Education Policy Analyst, the CATO Institute; Helen F. 
      Ladd, researcher, Duke University; Jackie Pinckney-Hackett, 
      public school parent, Jefferson Junior High School; and 
      Iris Toyer, transformation school parent, Stanton 
      Elementary School..........................................    95
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland......................................    28
    Flake, Hon. Jeff, a Representative in Congress from the State 
      of Arizona.................................................    22
    Hickok, Eugene, Under Secretary, U.S. Department of 
      Education; Mayor Anthony Williams, District of Columbia; 
      Linda Cropp, chairman, District of Columbia Council; and 
      Kevin Chavous, chair, Committee on Education, Libraries, 
      and Recreation.............................................    41
Letters, statements, etc., submitted for the record by:
    Baker, Josephine, executive director, District of Columbia 
      Public Charter School Board, prepared statement of.........   114
    Cafritz, Peggy Cooper, president, Board of Education, 
      prepared statement of......................................   100
    Chavous, Kevin, chair, Committee on Education, Libraries, and 
      Recreation, prepared statement of..........................    69
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    20
    Cropp, Linda, chairman, District of Columbia Council, 
      prepared statement of......................................    64
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    31
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     5
    Flake, Hon. Jeff, a Representative in Congress from the State 
      of Arizona, prepared statement of..........................    25
    Hickok, Eugene, Under Secretary, U.S. Department of 
      Education, prepared statement of...........................    44
    Ladd, Helen F., researcher, Duke University, prepared 
      statement of...............................................   124
    Lartigue, Casey J., Jr., Education Policy Analyst, the CATO 
      Institute, prepared statement of...........................   119
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia:
        Information concerning resolutions.......................   153
        Prepared statement of....................................    12
    Pinckney-Hackett, Jackie, public school parent, Jefferson 
      Junior High School, prepared statement of..................   130
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........    21
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    16
    Toyer, Iris, transformation school parent, Stanton Elementary 
      School, prepared statement of..............................   138
    Williams, Mayor Anthony, District of Columbia, prepared 
      statement of...............................................    56

 
 IN SEARCH OF EDUCATIONAL EXCELLENCE IN THE NATION'S CAPITAL: A REVIEW 
    OF ACADEMIC OPTIONS FOR STUDENTS AND PARENTS IN THE DISTRICT OF 
                                COLUMBIA

                              ----------                              


                          FRIDAY, MAY 9, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis, Shays, Souder, Ose, 
Lewis, Cannon, Blackburn, Waxman, Cummings, Kucinich, Tierney, 
Clay, Van Hollen, Ruppersberger and Norton.
    Staff present: Peter Sirh, staff director; Melissa Wojciak, 
deputy staff director; Keith Ausbrook, chief counsel; Jim 
Moore, counsel; Robert Borden, counsel/parliamentarian; David 
Marin, director of communications; Scott Kopple, deputy 
director of communications; Teresa Austin, chief clerk; Joshua 
E. Gillespie, deputy clerk; Shalley Kim, legislative assistant; 
Phil Barnett, minority chief counsel; Rosiland Parker and Tony 
Haywood, minority counsels; Michael Yeager, minority deputy 
chief counsel; Earley Green, minority chief clerk; Jean Gosa, 
minority assistant clerk; and Cecelia Morton, minority office 
manager.
    Chairman Tom Davis. Good morning. A Quorum being present 
the Committee on Government Reform will come to order. Welcome 
to today's hearing on academic options for students and parents 
in the District of Columbia.
    The condition of the District's public school system has 
concerned me since the first day I came to Congress as chairman 
of the District of Columbia Subcommittee. I represent a 
district just across the river. While we have made strides 
since then--the D.C. College Access Act, which I introduced, 
the establishment of charter schools--the quality of 
educational opportunities in the Nation's Capital should 
continue to worry all of us.
    The ability of the city's schools to meet its core goals 
has been long challenged by financial mismanagement and an 
array of other issues. Poor academic achievement scores are 
just one indicator. Students in the District should expect 
access to the same quality education as students in my district 
in Fairfax and in Prince William counties and across the region 
and across the country. This is the Nation's Capital.
    According to a U.S. Department of Education report, D.C. 
spends far more per pupil than Montgomery County, MD or Fairfax 
County, VA. Unfortunately, the District lags behind in school 
performance in comparison to other districts. Money is an 
important factor but in and of itself is not the only factor.
    When a child can't expect to get her hands on an errorless 
study guide to prepare for the Stanford 9 exam, I am concerned; 
and parents ought to be concerned.
    The District claims they need more money but are paying a 
consultant close to $300,000 for 6 months of work to figure out 
the budget and how many employees they have. I am concerned.
    When I hear about deteriorating schools, test scores that 
have not improved and staggering high school dropout rates, I 
am concerned. We all ought to be concerned.
    The question before us today is whether the District 
schools are providing what students need to succeed and, if 
not, what we might be able to do about it. We all want the 
District's education system to improve, every one of us, both 
sides of this. We have different ideas about how we can 
accomplish that.
    I visited the schools in the city and have seen the 
conditions under which the students are asked to learn, and I 
think we can do better. I have come to the conclusion that 
parents and students stuck in failing schools need--no, deserve 
an opportunity to choose from a wider pool. I have received 
calls from parents who are frustrated, angry, even distraught 
by the condition of their child's school; and I think we need 
to do more than just sympathize. I think it is our moral 
imperative.
    The school choice debate shouldn't be about politics. It 
should be about an honest appraisal of the state of affairs in 
our public schools, about offering alternatives for students 
and parents; and what is being proposed is not a mandate but a 
choice.
    Now these are challenging fiscal times, to be sure, but 
education remains priority No. 1. In the President's fiscal 
year 2004 proposed budget, $756 million has been allocated for 
school choice programs and some of that targeted toward a 
scholarship program in the District of Columbia.
    I have traditionally opposed Federal dollars going to 
private schools because I think Federal dollars ought to be 
targeted to public schools. But, for the District, I think we 
have to ask this question. Wouldn't more choices funded by 
Federal dollars provide a needed alternative for low-income 
children attending low-performing schools?
    Enhancing educational quality in the District is a critical 
component of maintaining the positive momentum we have seen in 
recent years under the stewardship of Mayor Williams and the 
Council. It is our duty to provide resources so that these kids 
can have a bright future. The District school system must be 
equipped with strategic tools and resources to assure the 
safety and well-being of the city's most vulnerable children.
    Congress saw the disparity and opportunity for District 
residents to attend college compared to other State residents. 
In 1999, Congress passed the D.C. College Access Act, 
legislation which I offered; and, I might add, we continue to 
fund. It has been a successful program. The act gave District 
students the right to attend any public college in the United 
States at an in-State tuition rate or receive $2,500 to attend 
any private college in the city or region. This has helped 
defray the tuition expenses of higher education for District of 
Columbia high school graduates and has made that dream of 
achieving a college education more realistic to thousands of 
D.C. students. It has leveled the playing field and brightened 
the futures of thousands of young adults.
    Now we need to reach out to more children. In order to 
provide greater educational options and innovations within the 
public school system, District of Columbia School Reform Act of 
1995 established charter schools for the city. That was 
controversial at its beginning. D.C. charter schools are 
publicly funded but operate independently from the school 
system, offering more choices within the public school 
framework.
    The goal of school choice in the District of Columbia is 
not subtraction but addition. Public charter schools are a key 
component of a comprehensive reform strategy; and today we are 
going to ask the question, are they enough? Expanded choices 
have benefits beyond the primary goal of educating District 
children better. They can also be an incredible economic 
development tool.
    Families flock to areas where schools succeed. In Fairfax 
County, where I once headed the government, our No. 1 selling 
point was our education system. That brought companies to 
relocate there. It kept companies expanding there. It produced 
a pool and a resource for these companies for their missions 
and to expand it, and today Fairfax County is one of the 
greatest economic success stories of this Nation. While 
national unemployment has gone to 6 percent, in Fairfax County, 
it's half that.
    Families flock to areas where schools succeed. They flee 
areas where schools underperform. Improving the education 
system will not only help the District but the entire 
Washington region as well. To have a healthy region, we need to 
have a healthy city, and nothing is more important to the 
health and vitality of that than its children and its future. 
All of us want the same thing, and hopefully we can have an 
honest debate how best to achieve that.
    We have a very distinguished panel of witnesses before us 
today. Our witnesses are here because of their commitment to 
the children of the Nation's Capital. I look forward to hearing 
testimony from our witnesses, and I want to thank our witnesses 
for sharing their experiences and suggestions with us.
    It is my hope that appropriate legislation involving school 
choice will be supported by District leaders, and the framework 
of that I think is something we need to have a discussion on, 
certainly the Chair is very open on. I look forward to 
strengthening communications between all of the key 
stakeholders in this.
    Before I yield to Mr. Waxman for his opening remarks, Ms. 
Norton I understand you have some guests in here today, is that 
right?
    Ms. Norton. Thank you, Mr. Chairman.
    I have just discovered that some young people from the 
Cesar Chavez public charter school were visiting the Congress 
today. They wanted to talk to me about preventing teenage 
pregnancy, and I thought that I might ask them to come to this 
hearing for a few minutes. They are one of the most successful 
of the 42 charter schools.
    So I would just like the young women from Cesar Chavez to 
stand up so that everybody can see what a charter school 
youngster looks like.
    Chairman Tom Davis. Thank you very much for being with us 
today.
    Now the rules of the committee, as all of you are guests, 
we don't boo, we don't applaud, we sit here and listen and have 
an intellectual debate and have extensive discussions. Ms. 
Norton has some deep concerns about some of the proposals, and 
we are going to work together on this and try to fashion 
something that helps the city.
    I now yield to my friend and ranking member, the gentleman 
from California, Mr. Waxman.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T8196.001
    
    [GRAPHIC] [TIFF OMITTED] T8196.002
    
    Mr. Waxman. Thank you, Mr. Chairman.
    It is only because of my institutional position as the 
ranking member of this committee that I am going to be the 
first Democrat to give an opening statement. But the one who 
really has been the leader for education in the District of 
Columbia is my colleague to the right of me, sitting to the 
right of me, Eleanor Holmes Norton. She has been a champion for 
education, and I want to commend her for her leadership in this 
area. She and Mr. Davis and I and others understand that 
education is the key to success.
    I come from the State of California where, at one time, we 
had a superb public education system; and because of that, our 
economy was so very, very successful. When government started 
squeezing down on money for education, the public schools 
suffered, and our business community suffered as well and, 
therefore, everybody has suffered. So it is important that we 
have a strong educational system, and the key to success and 
social mobility has always been in our public schools.
    There is no question that this city, Washington, DC, faces 
major challenges in improving its system of public education. 
Facilities are in poor shape, students don't always get the 
education they deserve, and management problems seem to occur 
too frequently. In a commendable effort to address these 
issues, the District has developed and is testing a broad array 
of alternatives to traditional public schools. The objective is 
to improve public education for all students without eroding 
the wall between church and State, without draining the 
resources from the public school system and without taking half 
measures that only benefit the wealthy few.
    The District of Columbia now has 42 public charter schools 
and 15 public transformational schools. These schools are like 
the entire system, a work in progress, but they have already 
shown some promising results. This hearing will help examine 
what these programs are able to offer the District. In fact, we 
ought to have the students who are visiting today from the 
charter school come and tell us their views on charter school 
education. They and so many other people who aren't even going 
to appear today have a lot to contribute to this discussion.
    While this is a formal hearing and the views of some will 
be represented, I know that others will want to submit their 
views to us. They are welcome to do so either for the record in 
writing or to those of us on the committee.
    This hearing will also explore options for private school 
vouchers. As a general matter, I have long had concerns about 
the use of vouchers for private school tuition because such 
proposals usually permit the funding of religious education at 
public expense. In addition, such subsidies are usually not 
sufficient to pay the full cost of private school tuition. In 
effect, they subsidize families who are well off enough to pay 
for the rest of the cost of the private education without 
giving those with fewer resources a real opportunity to attend 
these schools.
    Imposing them on the District raises a further concern 
because of the home rule issues involved. I have serious 
questions about whether the Federal Government should be 
imposing any kind of educational system, including a voucher 
system on the District of Columbia. I know my constituents in 
Los Angeles wouldn't want people in Washington deciding how our 
schools ought to operate, nor I'm sure in Virginia would they 
want the Federal Congress telling them that they have to have a 
certain form of education for their students.
    The District of Columbia is, of course, unique; and we 
always have to be sensitive to that uniqueness but also balance 
out the fact that residents of the District are quite capable 
of making decisions for themselves.
    I hope we will be able to use this hearing to explore these 
issues as well as other public school reforms in the District 
of Columbia; and I thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    I would like to recognize the vice-chairman of this 
committee, the gentleman from Connecticut, Mr. Shays.
    Mr. Shays. Thank you.
    Mr. Chairman, I am willing to have Ms. Norton go ahead of 
me, if you would like; and then I have a statement.
    Chairman Tom Davis. Ms. Norton, my good friend from the 
District, and I know this is a great concern to you.
    Ms. Norton. Like the friend and gentleman he always is, 
thank you very much, Mr. Shays.
    My thanks to Chairman Davis and his staff for working with 
us to assure that this hearing reflects a fair balance and is 
not focused entirely on the controversial subject of public 
money for private school vouchers or the Flake bill, H.R. 684.
    Anyone in touch with the residents of our city would be 
struck by how deep their continuing opposition to vouchers has 
been. Beginning with the referendum in 1981, followed by 
numerous Council and school board resolutions, the District, 
like every State that has had a voucher referendum, has turned 
down vouchers on the merits.
    A 2002 Council unanimous resolution said, in part: 
``Education advocates, teachers, parents and members of the 
Council of the District of Columbia decided, by act of the 
Council, that the best vehicle for public education reform in 
the District of Columbia is to offer charter schools and to 
improve the public schools of the District of Columbia.''
    A similar 2002 school board resolution said, in part, ``the 
Board of Education finds it inappropriate for Congress to 
utilize existing federally and locally appropriated resources 
for a voucher program or to use any congressional add-on funds 
for this purpose; and any additional moneys should be added to 
the District budget to provide sorely needed resources key to 
educational reform in the District; and any voucher program 
will undermine the school systems' effort to support a system 
of high-quality neighborhood schools.''
    These views, which I am confident continue among the 
majority of D.C. residents and officials, are as remarkably 
broad as they are deep across the city's wards. I have been 
impressed by just how universal this view is among our parents, 
from our more fortunate middle-income residents to our families 
who are least well off.
    School board member William Lockridge, who represents ward 
7 and 8 where the majority of our low-income parents reside, 
has visited me personally to make a strong case that he and his 
constituents strongly oppose private school vouchers; and he 
has given me a list of his ward 7 and 8 charter and 
transformation schools and asked me to do all I can to see that 
these schools are funded with any available Federal funds.
    Thank you, Mr. Chairman.
    Mayor Williams, Council Member Chavous and School Board 
President Cafritz have bowed to the Bush administration on 
vouchers. Perhaps even they, however, would hesitate to support 
the Flake bill, even if the amount offered is raised and even 
given that vouchers--and even given their view that vouchers 
are acceptable in exchange for other funds.
    The Flake bill is a carbon copy of former majority leader 
Dick Armey's annual D.C. voucher bill. This bill makes every 
decision not with District officials but for District officials 
and comes complete with a new bureaucracy, a seven-person 
corporation to administer the program.
    With this corporation, the Flake bill strikes a new low in 
the long history of congressional imitations of colonialism. In 
the almost 30 years of home rule I have never seen a bill for 
the city, with or without Federal funds, that would leave the 
Mayor with but one appointee while allowing the President to 
appoint six. Most of my constituents would regard such token 
recognition as closer to insult than inclusion.
    Quite apart from the merits of the Flake bill, however, the 
failure to get agreement from elected officials disqualifies 
the bill on basic democratic principles of consent of the 
governed. As the Mayor and Council Chair know well, a home rule 
decision requires an agreement by both branches of the D.C. 
government. Both know that in keeping with this principle I 
will not change any documented position of the city, no matter 
how minor, without consulting both the Mayor as well as the 
Council Chair so she can poll her members to see if the 
majority agrees. No individual can change a home rule position 
without getting the majority of his colleagues.
    I regret that this path has not been followed by the three 
officials who now support vouchers. I particularly regret that 
the Mayor and I, who have worked closely and cordially 
together, did not have conversations all along. Despite our 
differences on vouchers, I am certain that he and I will want 
to resume our close collaboration on city issues and move on 
from here. Our mutual devotion to the city is too important for 
any other course.
    As Council and school board resolutions clearly indicate, 
objections to funding for private schools in the District have 
always gone well beyond home rule resolutely rejecting 
vouchers. In opposing public money for private schools, the 
District fits the pattern of every State in the Union that has 
gone on record. Voucher referendums here and everywhere else in 
the United States have opposed vouchers because most parents 
know what D.C. residents know, that there is one Federal, 
always inadequate, education pot and that what would go to 
private schools would reduce that public pot, pure and simple.
    However, the District's case against vouchers runs deeper 
and is more justified. I have always believed that it is wrong 
to leave parents without affordable alternatives to 
neighborhood schools. I admire the District's long-time policy, 
adopted many years before recent Federal legislation, of 
allowing children to attend school outside their neighborhoods. 
The city has not stopped there, however. Today its 42 charter 
schools go well beyond the number per capita than anywhere in 
the country. These publicly accountable schools are so popular 
that they are seriously overcrowded, most often housed in 
inadequate facilities, have mile-long waiting lists and are 
crying for funds.
    The enthusiasm for our charter schools is traceable to 
their responsiveness to their parent and child consumers, who 
have been attracted by their often small classes, their focused 
curriculums or their specialized offerings that are often 
available nowhere else--from year-round and foreign-language-
centered schools, to technology, art and even boarding schools 
and a school for kids from the juvenile justice system.
    I was able to get $17 million for our charters in this 
year's appropriation, an amount so small compared to the need 
that I hesitate to even mention it. For example, Thurgood 
Marshall Academy Public Charter School, located in a ward 8 
church that I visited last week, needs to move to the abandoned 
Congress Heights school down the street, but $10 million is 
necessary to make the school usable. That is a story over and 
over again in the District for public schools that are standing 
abandoned because the Council and the Mayor have not been able 
to come forward with funds to allow these schools to be usable 
so people can move out of overcrowded schools with long waiting 
lists.
    Equally impressive are the city's transformation schools, 
where many of our most disadvantaged children attend school and 
where the greatest promise may lie. Transformation schools have 
been educationally rebuilt from the ground up not only with new 
staff but with so-called wraparound services from city agencies 
and special assistance not usually available in other schools, 
such as aggressive student remediation, class size reduction 
and programs for parents. The early results are extremely 
gratifying, including, according to D.C. public schools, 
increases in student performance in all 15 transformation 
schools.
    This good news story of the charter and transformation 
schools is the most underreported in the city. However, the 
parents of our children have shown that they know this story, 
judging by the way they have bonded with these schools and 
demanded more of them. D.C. elected officials know or should 
know this story, too.
    The Mayor and the City Council have just finished marking 
up their 2004 budget. They know all too well that they have had 
to cut our schools this very year.
    Particularly in a year when they are cutting our schools, 
it is unconscionable to direct any available Federal money away 
from the schools for which they had direct responsibility and 
that have been embraced by our parents: charter schools that 
cannot add a grade and are turning children back to traditional 
public schools from which they came and transformation schools 
whose promise to families the city has already begun to break, 
not to mention the obligation of elected officials to expand 
the number of transformation schools because so many low-
performing schools have not been included to be transformed. It 
can't be right to agree to send funds to private alternative 
schools when the city is leaving its own successful parents-
sanctioned alternatives cut and chronically underfunded.
    The least efficient way to use Federal dollars is to hand 
it out to a few individuals when the same amount put together 
could move many more children out of crowded charter facilities 
and help charter schools expand so they don't send children 
back to their neighborhood schools because they lack the funds 
to add a grade and to guarantee that transformation schools do, 
in fact, transform.
    We chastise the Congress for not recognizing that 
democratic principles should govern congressional dealings with 
the District. Democracy also applies within the District. 
Judged by this same standard, the evidence is that District 
residents, especially parents, want any and all available money 
to go to their own schools that may qualify for Federal 
funding, all of it, not whatever a few selected officials 
decide may be divided between private schools and our own 
alternative public schools that are publicly accountable to the 
residents and officials of the District of Columbia.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T8196.003

[GRAPHIC] [TIFF OMITTED] T8196.004

[GRAPHIC] [TIFF OMITTED] T8196.005

    Chairman Tom Davis. Mr. Shays.
    Mr. Shays. Mr. Chairman, thank you for holding this very 
important hearing.
    Thank you to my two colleagues, Mr. Flake and Mr. Cummings. 
Mr. Cummings, you might have gotten to speak sooner had you 
stayed up here rather than there, but it is very important that 
you share that table with Mr. Flake; and I appreciate you 
testifying.
    Mr. Chairman, schools in many cities and communities across 
the country are failing; and despite years of increased funding 
for education, test scores continue to languish. We are here to 
try to determine if there are ways we can improve education in 
one of these failing school districts, our Nation's Capital.
    I oppose directly spending Federal tax dollars in private 
schools, but just as I support providing Pell grants to college 
students for use at the university of their choice, public or 
private, including religious schools, I also support school 
choice programs that provide parents with similar choices for 
their elementary and secondary school children.
    Opponents of school choice argue such a proposal could 
drain public schools of money and students. I think they are 
dead wrong, but there is a simple way for us to see. Why not 
establish a handful of demonstration projects that will help 
determine whether school choice improves our education system, 
and why not do it in our Nation's Capital? If a project is 
unsuccessful, we will terminate it. But if a program is 
successful, it can and should be expanded.
    One pending bill in Congress is H.R. 684, the District of 
Columbia Student Opportunity Scholarship Act. The scholarships 
this bill authorizes can be used for tuition, mandatory fees 
and transportation costs at public or private schools, 
including religious schools in D.C. and nearby counties in 
Virginia and Maryland. Unlike past proposals, under H.R. 684 
funding for public schools will not be reduced if a child uses 
a scholarship to attend a different school; and because the 
scholarship board is a public-private partnership, private 
funds can be used to supplement the program.
    While there is little doubt that D.C. public schools are in 
serious crisis, it is not a crisis caused by a lack of 
resources. D.C. public schools spend more per pupil than 
surrounding school districts in Virginia and Maryland. Clearly, 
alternatives to increasing funding should be tested. By 
promoting a competitive model, all schools will be forced to 
improve academically, provide better quality services and 
create an administrative structure that operates efficiently.
    We are here to discuss opportunity scholarships for 
students in Washington, DC, but it is my hope that schools like 
our Bridgeport public schools in my district, if they so chose, 
will have the same pilot program come to their community. The 
goal of this program is simple: ensuring D.C. students get the 
best education possible.
    We have excellent witnesses, Mr. Chairman, on all our 
panels; and I look forward to the dialog. Thank you.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T8196.006
    
    [GRAPHIC] [TIFF OMITTED] T8196.007
    
    Chairman Tom Davis. Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman.
    You know the inability of poor families to have the 
opportunity to have a choice where their children can attend 
school is really another form of segregation, segregation on 
the poor from various backgrounds; and it is being inflicted 
upon them by special interest groups that aren't willing to 
participate in the competitive arena for excellence in 
education. I mean, why should only those that can afford it be 
able to send their kids to schools that are achieving 
excellence in many ways? Public schools in many places do a 
very good job, but they should be willing to compete so that 
they can improve where they are having problems. That is what 
this is all about.
    I think we need to end this blocking the way for children 
that are born in a situation where beyond their--it is not 
their fault that they don't have the means to afford a good 
education. We can start by seeing what can happen here in 
Washington, DC, by giving them a chance; and this is a real 
opportunity to do it.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman, for yielding.
    The issue of school choice is an issue that is not 
necessarily germane to Washington, DC, public school districts. 
School choice is an issue that all communities are currently 
grappling with. Regardless of the community we reside in, 
public school districts have always played an important role in 
the decisions of families and businesses. Do we stay or do we 
leave?
    If a family has school-aged children and moves into a new 
neighborhood, the first two questions often asked are, where 
and how is the local school? Questions like those often reflect 
the parents' concern about where to send their children to 
school. Children have the same questions because they are the 
ones that will attend, and it may mean the difference of having 
to walk or having to bus.
    In situations where there is no child in the home, the 
question will probably be the same but for different reasons. A 
family without children present may realize the importance of a 
community where substantial capital investments are made 
regularly and property values are stable. Businesses also may 
want to know about local school conditions so they can use the 
information to market the community to potential new employees.
    The problems in D.C. public schools are not unique to D.C. 
They are similar to most urban school districts. I come from a 
background of 17 years in the State legislature where I 
authored the bill to create charter schools in Kansas City and 
St. Louis, MO, and also to settle a 30-year-old desegregation 
case.
    And having an option to school choice should not mean 
school bankruptcy. Options can be good when they reflect real 
choices.
    I believe that, in order to be victorious, a school 
district must have commitment to academic and financial 
investment, regardless of its location. Meaningful school 
choice should be about having real options. However, it should 
not be at the expense of taking needed resources from public 
schools to subsidize private ones.
    Personally, I have not yet been convinced about the so-
called success of charter schools and voucher programs. And I 
say that about charters because they have been in existence for 
a little bit over 10 years, and the verdict is still out. Are 
academic levels increasing? The advocates of charters told me 
initially, OK, if charters fail on their own, they will go out 
of existence. I don't know many charter schools that have gone 
out of existence because they didn't raise academic achievement 
levels; and I would like to hear from witnesses today to point 
out those schools that have gone out of existence, that didn't 
raise the academic achievement level.
    You know, receiving a quality public education is a part of 
this country's inheritance and reflects on a deeply rooted 
commitment to give everyone an equal opportunity to become 
successful. Education can truly be the great equalizer. With 
investment comes a better work force and a more prosperous and 
safer community.
    The Washington, DC, public school system is simply a 
microcosm of our Nation's public school challenge. To date, the 
D.C. public school district's original nine transformation 
schools have shown real documental progress and improved 
standardized test scores and parents' surveys. For these 
reasons, I am inclined to urge my colleagues to make the 
investment in transformation and traditional schools and stop 
the social experiment that is draining this community 
economically and socially.
    I look forward to hearing from today's panel, and I ask 
unanimous consent to submit my statement into the record. Thank 
you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Any other Members wish to make a statement? Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    I just want to start by commending the chairman for having 
this balanced presentation today because I think it is an 
important discussion to have, and I want to associate myself 
with the remarks of Ms. Norton who I think always does an 
incredibly able job of representing her constituency but also 
articulating the important matters and points for her 
constituents.
    There has been, to my knowledge, no substantial, 
independently verifiable evidence of academic gains with any 
voucher program; and I think that is an important point to 
make. The fact of the matter, as we discuss taking public 
resources and applying them in a way that is going to decrease 
the amount of resources available for our public school system, 
we have to be looking at student achievement as the basis for 
that.
    I know that there are some studies that have since been 
questioned where there was--small gains were argued but, in 
fact, in review, those studies were not only questioned but 
proven to be suspect. The fact of the matter is, in the D.C. 
schools, they have transformation schools; and the information 
that I have on the progress of those schools indicate that they 
are being successful by many measures.
    It is interesting to say that Mr. Shays made a good point 
that there's a sizable amount of resources being invested in 
the D.C. schools, but in the transformation schools they are 
being invested in ways that experts have come repeatedly in 
front of us, and the Education and Workforce Committee which I 
also serve on, numerous times telling us that schools have to 
be high-performing, child-centered, and family and community 
focused learning centers in full collaboration with students 
parents, communities and local administrators.
    That, in fact, is what the transformation schools are. They 
have a wide range of unique services, health care services, 
mental health services, before and after care programs and 
adult education. These types of things are what we have needed 
in our public school system to make sure that students have an 
ability to succeed; and in those experiments that seem to be 
going on so far in the D.C. area, they are succeeding and there 
are measurable results from that.
    So I think that you know before we go off on an area where 
we are draining public resources for a private area we realize 
our obligation is to the public school system and that we have 
some means here in D.C. that have been tried and is working. I 
would like to credit the community for that and hope that this 
committee at least can give support for that type of progress 
without experimenting--just because we have the apparent power 
to do so under the Constitution does not mean we should 
exercise that--and have some mind as to what the community 
itself has done and done successfully.
    I yield back the balance of my time.
    Chairman Tom Davis. Thank you very much.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you, Mr. Chairman.
    This is a very important hearing to really review the 
academic options for students and parents in the District of 
Columbia.
    Ms. Norton, you do represent your constituents well. Thank 
you for bringing us here today and really discussing the issues 
that are very important to your citizens.
    As we continue to debate the best way to improve our system 
of public education, we must consider the options for students 
and parents. Home schooling, private scholarships, charter 
schools and vouchers are some of those options.
    Now, all too often the politics about education focuses on 
vouchers. However, the District of Columbia residents have 
voted consistently against vouchers for the last 20 years 
because it would divert public funds from public schools. Is it 
fair to impose something on D.C. residents and their children 
that they have strongly opposed? Now I welcome the opportunity 
to discuss all the options available to improve the academic 
opportunities for students.
    As the Cleveland case shows, there are not enough private 
schools to educate all of the children. Over 99 percent of the 
students remain in the public school system, and there are not 
enough slots in the private school systems to take them. So 
regardless of where you stand on the politics of vouchers, we 
still need to fix public schools, and that's why I appreciate 
the opportunity to consider all of the policy options to 
improve education.
    Diverting money from public schools makes no sense because 
it's unfair to the overwhelming majority of the families 
relying on the public school system. We need to work the 
system. We need to make sure we give the resources and then 
hold those involved in the system accountable for performance.
    I thank you for having this hearing today, Mr. Chairman.
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
follows:]

[GRAPHIC] [TIFF OMITTED] T8196.110

    Chairman Tom Davis. Thank you very much.
    We now move to our first panel of witnesses. Thank you for 
bearing with us.
    I want to welcome Congressman Jeff Flake from Arizona, who 
has an innovative approach and has introduced legislation on 
the issue; and a member of this committee, a very active member 
of our committee, Elijah Cummings from Maryland. We appreciate 
both of you being with us.
    What I would like to do is I will start with Mr. Flake, 
because he has introduced legislation on this; and then I'll 
move to our committee member. Then if you could take a couple 
of questions, and we will move on to the next panel.
    Elijah, thanks for bearing with us. You could have been up 
here, as Chris said, and made your statement earlier, but we 
prefer to keep you down there in the spotlight.
    Jeff, thanks for being here and thanks for your interest in 
this issue.

STATEMENT OF HON. JEFF FLAKE, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ARIZONA

    Mr. Flake. I want to thank the chairman and ranking member 
and members of this committee for holding this important 
hearing and for considering this piece of legislation.
    Let me just dispel something quickly. It's been raised 
several times, what this two-term Republican Congressman from 
Arizona, this Flake, why does he want to propose or impose 
vouchers on the District of Columbia? Not even a flake would 
seek to impose vouchers on anybody.
    This bill does not impose vouchers on one child. It needs 
to be said again and again and again. All this bill does is 
allow children the opportunity to seek a different or better 
education if they so choose.
    It has been said a number of times already that voters in 
the District of Columbia have voted again and again for the 
past 20 years to reject vouchers. District voters have never 
voted on a voucher program, never. In 1981, District voters 
voted on a tuition tax credit program which would have 
benefited only those who pay taxes. Those who are typically 
poor and did not pay taxes would not have benefited. That was 
rejected back in 1981. No referendum and no vote has been taken 
since that time. There has never been a vote on a voucher 
program.
    When it has been said that the people in the District of 
Columbia simply don't support this program, I would ask you to 
look around the room, particularly in the back of the room at a 
number of parents who are here dressed in green who want a 
different education for their children.
    I could refer to poll after poll after poll that shows a 
majority of individuals wish to have more opportunities, but I 
think the best poll is actually the fact that a few years ago 
in Washington, DC, when the Washington scholarship fund offered 
1,000 scholarships to needy children to attend private schools, 
there were 7,573 applicants, of whom 6,500, obviously, did not 
receive a scholarship. They are still waiting, and many of them 
apply again and again every year for an opportunity to send 
their children elsewhere. That's the best poll there is.
    Let me just tell you a little of what we have in Arizona. 
My children--I have five of them, three of whom are school 
aged. We lived in a district in Phoenix and we felt a few years 
ago that the district didn't serve our kids' needs very well. 
We had the financial resources to move, and so we did. We moved 
to another school district across town that had a better 
system, and we were fortunate that we were able to do that.
    My three children attend traditional public schools, but 
there are charter schools everywhere in Arizona. We have nearly 
500 of them, more than any other State.
    We also have a very innovative tuition tax credit program 
that is designed particularly for low-income kids. In fact, the 
only stipulation with it is that you cannot use it to benefit 
your own child. You have to use it for someone else's child, 
and now more than 20,000 children in Arizona are taking 
advantage of that program. The schools that my kids attend, the 
public schools that my kids attend are far better because those 
options are available; and I simply wish that parents across 
the country and in Washington, DC, would have the same 
opportunities that I have for my children. So that's what this 
legislation is about.
    Let me just go into a couple of particulars in the time I 
have left. Under H.R. 684, District students whose families' 
incomes are below the poverty line may receive a scholarship of 
up to $5,000 or the cost of tuition, whichever is less. 
Students with family incomes that are above the poverty line 
but below 185 percent of the poverty line may receive 
assistance up to $3,750. And then students can also receive 
enhancement or achievement scholarships and be eligible for 
tuition awards up to $800 as long as they are under the 185 
percent poverty line.
    It has been said there aren't sufficient private schools to 
take all the kids that may apply. Well, we know there have been 
surveys done and about half of the private schools sent back to 
the survey and indicated that there were in those schools about 
2,200 spots available. Now how can we say on one side nobody 
will take advantage of it and then on the other hand say there 
aren't enough private school slots to fill for these kids? I 
say, let the parents choose. If you look over here at these 
posters, there are wonderful statements by parents from right 
here in the District of Columbia, some of whom are in the room 
today, who simply want better education for their kids. 
Shouldn't they be listened to as well?
    I have to say, before I wrap up, a lot has been mentioned 
about charter schools. Charter schools are wonderful, and they 
are doing a great thing here in the District of Columbia, but 
it should be noted that charter schools were not a District 
initiative, they were a congressional initiative, they were a 
Federal initiative. The District cooperated and has now 
embraced them and thank goodness they have.
    I have a notion that years from now the District officials, 
those who haven't already, will stand and say thank goodness 
Congress had the foresight to allow--not impose, but allow 
children to attend schools of their choice.
    With that, Mr. Chairman, I thank you again; and I just want 
to wrap up with your own statement here. You said, I have come 
to the conclusion that parents and students stuck in failing 
schools need, no, deserve the opportunity to choose from a 
wider pool. It's time to do more than sympathize. This is a 
moral imperative. Mr. Chairman, you're exactly right. This is a 
moral imperative, and it is time for us to move ahead.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Hon. Jeff Flake follows:]

    [GRAPHIC] [TIFF OMITTED] T8196.011
    
    [GRAPHIC] [TIFF OMITTED] T8196.012
    
    [GRAPHIC] [TIFF OMITTED] T8196.013
    
    Chairman Tom Davis. Mr. Cummings.

   STATEMENT OF HON. ELIJAH E. CUMMINGS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Cummings. Mr. Chairman, I want to thank you for holding 
this hearing; and I am impressed with the concern about the 
residents of the District of Columbia and their children and 
their schools.
    As a neighbor of the District of Columbia, with children 
who in Baltimore still are reading from books when Jimmy Carter 
was still President, as a neighbor where there are schools 
where a child can actually graduate from high school without 
ever looking through a microscope, as a neighbor of the 
District in Baltimore where there is one school that I know of 
that just a year ago had 13 computers for 1,300 children, I am 
impressed with the concern.
    I must tell you that, as I listen to this debate, for the 
life of me, I can't understand why we haven't fully funded No 
Child Left Behind. That might help many of these children so 
that they don't have to go to a different or alternative 
situation; and that, Mr. Chairman, is basically what the debate 
is all about.
    I certainly do believe that Mr. Flake's intention is 
honorable and believe that he means well. It was Martin Luther 
King who said, you cannot lead where you do not go and you 
cannot teach what you do not know. So I appreciate the 
opportunity to appear here today as this committee examines the 
D.C. public school system, including the public charter 
transformational schools available to elementary and secondary 
students.
    At the same time, Mr. Chairman, I must begin by saying that 
the Congressional Black Caucus regrets that Congresswoman 
Norton--who does a phenomenal job, and I applaud her. When I 
look at what she did with regard to making it possible for 
young people graduating from high school to be able to get 
tuition covered in other jurisdictions, that is phenomenal, but 
we want to make sure that those children--all of us, I think, 
even get to a point where they have an opportunity to use those 
scholarships.
    The thing that I guess upsets me so much is that none of us 
in this Congress would stand around and watch somebody impose 
something on our district without us even being consulted, none 
of us. Even my good friend Mr. Flake would raise hell.
    Using the fact that the District is also the Nation's 
Capital, the House repeatedly tries to press its ideological 
agenda on hometown Washington against the will of the majority 
of the city's residents and elected officials. I dare say that 
Members of this Congress, if there was a local government in 
your jurisdiction that expressed its will, I bet you we would 
be up there yelling and supporting them 100 percent.
    The city council has expressed its concerns. They represent 
the people. They are elected by the people just like we are. 
There is no better example of this unequal treatment than H.R. 
5033 introduced by former majority leader Dick Armey in the 
last session and reintroduced this year, to some degree, by 
Congressman Jeff Flake of Arizona. This bill would impose 
private school vouchers on the District of Columbia. It relates 
exclusively to Ms. Norton's district but was drawn without her 
collaboration or even the courtesy of a conversation. Something 
is wrong with that picture.
    At the same time, Mr. Chairman, the Caucus appreciates--
that is, the Congressional Black Caucus appreciates that you 
have structured the hearing to hear all options, including 
those the District has consistently endorsed. While there is 
some debate fostered by some individuals in the District 
concerning vouchers, the record shows that the D.C. Council and 
the school board have repeatedly opposed vouchers.
    I heard what Mr. Flake said--but I just want to add one 
thing, Mr. Flake--a lot of poor people pay taxes. If that 
position is to be changed, District officials and residents are 
full and equal citizens who no more require guidance from 
Congress than the rest of us do concerning our local schools 
and our children. The House has made sure that our own 
districts would not have mandated vouchers like those in H.R. 
684 would impose on the District. We did so first in the No 
Child Left Behind bill passed here in the first session of the 
107th Congress, and we did it last week again in the IDEA 
special education bill where two voucher amendments were 
defeated.
    I might add that several Republican members of this 
committee, including Chairman Davis, voted with the majority 
against vouchers. If the House has refused to impose vouchers 
on our own districts, how then can we treat the District 
differently or unequally? Something is wrong with that picture.
    Further on the merits, taking scarce public funds from 
publicly accountable schools is impossible to justify. The Bush 
administration and this Congress have imposed a mandate on 
D.C., the District of Columbia and Baltimore and every district 
in the United States with the passage of the No Child Left 
Behind Act. Even if you support vouchers, it would be 
especially wrong to take Federal funds from public education 
today and fund private schools when Congress is cutting Federal 
funding for public schools.
    Moreover, the District should be the last district required 
to use vouchers. Its network of charter and transformation 
school alternatives is the most extensive in the entire Nation. 
Congress should be proud of how far the District has gone 
beyond the rest of us by offering a broad and interesting array 
of alternative publicly accountable schools.
    Members should be visiting D.C.'s charter and 
transformation schools to learn from the District so that we 
might do the same in our own districts. Congress should be 
authorizing funds to allow the District's charter schools to 
reduce their long waiting list of parents trying to gain 
admission for their children and move the charter schools from 
crowded and inadequate facilities. Congress should be 
especially helping the District to continue and indeed to 
expand its transformation schools which serve mostly low-income 
students. As a father of a Baltimore child who is in a charter 
school, I can tell you they work; and they are some of the best 
in our city.
    The House has voted down vouchers for the Nation even 
though not one Member's district has nearly the number of 
alternatives and options per capita as the District offers. The 
city should be rewarded and encouraged to do more of exactly 
what it is doing, without controversial vouchers that studies 
show do not improve students' test outcomes. The city's work 
provides nothing less than a model for the Nation and publicly 
accountable alternatives to its public schools.
    The Congressional Black Caucus strongly opposes H.R. 684 
and any congressional bill that interferes with local control 
of local schools in any district, including the District of 
Columbia. The Congressional Black Caucus also opposes the use 
of any Federal funds for private schools, especially now when 
Federal funds for public education are being severely 
restricted and cut.
    I know this is a highly charged issue, but I would hope 
that we would listen to our colleague Eleanor Holmes Norton and 
the thousands of people she represents that do not want private 
school vouchers imposed upon them.
    Once again, Mr. Chairman, I thank you and yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T8196.014

[GRAPHIC] [TIFF OMITTED] T8196.015

    Chairman Tom Davis. I thank you both for being here and 
giving divergent views on an issue we want to solve together.
    Let me say to my friend and fellow Orioles fan, I have 
traditionally voted against vouchers at the national level, but 
I have also supported vouchers for the city in earlier 
Congresses.
    I don't know how we are going to handle this at this point. 
That's why we want to have a discussion and get all opinions 
there and see if we are talking new money, how it works, and 
how we structure it; and that is the purpose of this hearing 
today. But nationally only 6 percent of the money that goes to 
primary and secondary education comes from the Federal 
Government, and it is my belief that at that level our money 
ought to go into public schools.
    That small percent, I don't think it is helpful. If States 
want to do it, that is different. In the District, of course, 
we have a unique relationship and a unique responsibility; and 
we have, in fact, stepped up to some of the State 
responsibilities for the city that we would not ordinarily--the 
States would do. So I look at it a little bit differently, and 
it is close to home.
    I have also wrestled with the problems with the city since 
my first term and see a great challenge to all of us. Ms. 
Norton and I have worked through a lot of issues where we have 
come at it from different directions, and I think the city is a 
better place for it.
    We also uniquely have in this case the Mayor, some Council 
members and the city basically split on exactly what we want to 
do. But I appreciate your perspective and the perspective of 
the Black Caucus because it is important as we formulate these 
issues. But from my perspective and I think from most members, 
we are not looking at this from an ideological point of view. I 
look forward to continue to work with you.
    Mr. Flake, let me just say to you again, you have come up 
with some innovative ideas. You picked up the ball to some 
extent where former Majority Leader Armey left off. From our 
perspective we welcome you into the debate, and you have 
clearly done some homework on this.
    Instead of asking a lot of questions at this point, because 
we have other panels we want to get to, going to turn it over 
to Ms. Norton for a few questions because I know she wants to 
ask and clarify. It's my intention to get you off as quickly as 
we can, because we have two more panels ready to go.
    But thank you both for being here. This is an important 
subject, and we are going to handle it in an appropriate 
fashion.
    I yield to my friend to the District, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Chairman, when the Chair of the Congressional Black 
Caucus points out the inconsistency of believing there should 
be vouchers in the District, but voting against it for the 
Nation, I don't think there is any way to wiggle out of that 
problem. It is a terrible, terrible problem. I just want to say 
for the record that we demand to be treated exactly as your 
district is treated. However you vote on vouchers for Fairfax, 
that ought to apply to us.
    Now, you also have no unique responsibility. You may have a 
unique responsibility for the Nation's Capital, and I wish you 
would take more of it, but you certainly don't have any unique 
responsibility for the D.C. public schools, which are paid for 
exclusively by the residents of the District of Columbia. So 
the notion of using the fact that we are in Nation's capitol to 
demand control of any kind over our public schools is totally 
unacceptable to us.
    Mr. Flake, you said that this bill does not impose vouchers 
on the District. Who did you consult in the District when 
writing this bill?
    Mr. Flake. I thank the gentlewoman for the question. We 
consulted a number of parents in the District. Also, as you 
mentioned, this bill is largely the same bill that Congressman 
Armey has introduced.
    Ms. Norton. So you consulted Mr. Armey, and individual 
parents who have not been elected by the people of the District 
of Columbia?
    Mr. Flake. I think the parents ought to have the choice as 
to where they send their kids.
    Ms. Norton. How do you know those parents represent the 
majority of the residents of the District of Columbia, sir? If 
I went into your district and picked out some parents to talk 
to, would you think that is the way to find out how public 
opinion has been registered in your district?
    Mr. Flake. There are a number of ways to register public 
opinion. I think the fact that over 7,000 District parents 
applied for scholarships, it shows that there is some support 
for other alternatives. Whether or not that represents a 
majority, we don't know. But even if one parent----
    Ms. Norton. Mr. Flake, in the future, if you would like 
some sense of where the majority stands, I refer you back to 
democratic principles and advise that you might ask me. I have 
been elected by almost 90 percent of the people of the District 
of Columbia. You might, in fact, talk to the Mayor of the 
District of Columbia. You might talk to the chair of the City 
Council of the District of Columbia, rather than choosing 
parents you desire to talk to.
    As for the tax credit, you are absolutely right, it was a 
tax credit. If we were only going on the fact that the District 
had passed a tax credit, you would be entirely right. It was 
not a voucher, a Federal voucher; it was a tax credit.
    I don't know what you do with 20 years of Council 
resolutions, unanimous resolutions, sir, since the Council does 
represent the people of the District of Columbia and it has 
been voted on by them. I don't know what you do with 20 years' 
worth of school board resolutions, because those have been 
voted on by the people of the District of Columbia. We do have 
a representative form of government which allows people to 
vote.
    You said that the charter schools were not a D.C. 
initiative. You are wrong, sir. The charter school bill, the 
first Federal charter school bill, was passed by the Congress 
of the United States at a time when our school board was 
virtually defunct. However, Newt Gingrich, who was then 
Speaker, set up a series of task forces and allowed those task 
forces to call in not only school board members, but council 
members, advisory neighborhood commissioners, school activists 
before the charter school bill was passed.
    I would commend to you the way in which Speaker Gingrich 
went about passing that first charter bill. That was virtually 
a home rule bill. We drew it together. You could have done the 
same thing that Speaker Gingrich did. You could have said, 
school activists come in. We had meeting after meeting. We had 
council members. It was almost impossible to find somebody who 
had not sat at the table in the countless meetings before the 
Federal charter school bill for the District of Columbia was 
passed.
    I have a question for you: Are you in favor of the tax 
credit voucher bill in the State of Arizona?
    Mr. Flake. Let me just say, before I answer that question, 
I have met with members of the city council and also the school 
board.
    Ms. Norton. What members of the city council and school 
board have you worked with, sir?
    Mr. Flake. I met with Representative Chavous.
    Ms. Norton. What did he tell you?
    Mr. Flake. He said----
    Ms. Norton. Before you wrote this bill you consulted with 
Mr. Chavous and he had some input into that bill?
    Mr. Flake. No. I met with him. I also placed a call to you.
    Ms. Norton. I called you back and did not get a return 
call.
    Mr. Flake. We did speak. You mentioned that you had written 
a letter to the Secretary of Education, and that I should read 
that, and I did.
    Chairman Tom Davis. The gentlewoman's time has expired.
    Ms. Norton. Could he answer the question I just asked, 
please?
    Mr. Flake. Yes. The tuition tax credit I very much support.
    Ms. Norton. Do you know that on April 9th in your own State 
that a new version of that was defeated? According to many 
analysts, it was because it would have diverted $50 million in 
State tax revenues from the State of Arizona.
    And you are then also aware of the criticisms of the 
existing tuition tax credit, which has found that although you 
are not supposed to write for your own child, you can do 
donations for other children? As a result, there are parents 
writing $500 checks for their friends' children to get the 
scholarship that was initially meant for low-income students.
    Chairman Tom Davis. The gentlewoman's time has expired.
    I had hoped to move you on and off, but I think Ms. 
Norton's inquiry has occasioned that some of our other members 
want to say something.
    Let me just make one comment for the record. The District 
of Columbia gets $116 million in Federal funds. I was saying 
that----
    Ms. Norton. That is due under its per pupil share, Mr. 
Chairman.
    Chairman Tom Davis. It is important to note, nationally 6 
percent of the money for primary and secondary schools comes in 
from the Federal Government. It is about between 1 and 2 
percent in my home county of Fairfax. If the schools in the 
District had results anything resembling Fairfax, we would not 
even be here today.
    It is just my belief that children in the District ought to 
get those same opportunities. How we get there is a question 
that we are going to have, obviously, a lot of spirited 
discussion. But the city's school system, by almost any 
measure, is failing. Now you have city elected leaders saying 
they are concerned about it, too, and they want to look at 
other options as well. We are going to hear from them today.
    We will have a spirited discussion, and hopefully we can 
come up with something. But when only 5 percent of the city's 
eight graders are proficient in science, zero percent in 
advanced courses, that is a cause of concern.
    The gentleman from Connecticut, Mr. Shays, is recognized.
    Mr. Shays. Thank you.
    Mr. Chairman, I had an intuitive sense that I wanted to be 
for vouchers years ago, and I spent 3 years longer to do too 
because I was afraid of the CEA and the NEA. I was afraid that 
the education lobby that I love and respect would no longer 
support me. As soon as I did, that is exactly what happened. 
There was a real disincentive for me to do what I felt was 
right. I believe vouchers are just a no-brainer.
    I am just wondering, Mr. Flake, in your bill if, for 
instance, it costs $10,000 to educate a child in D.C. and the 
voucher is $3,000, do you take the remaining $7,000, or is D.C. 
allowed to get the balance and keep it, even though they have 
no student to educate?
    Mr. Flake. I thank the gentleman for the question. This is 
new money. This does not come out of any per pupil share that 
is already supplied by the Congress or is in the D.C. budget, 
this is completely new money. It will be $7 million for fiscal 
year 2004, $8 million for 2005.
    Mr. Shays. When they no longer have any child in school, 
would they lose any Federal dollars?
    Mr. Flake. No.
    Mr. Shays. They would basically have more money for the 
remaining children; is that correct?
    Mr. Flake. That is correct.
    Mr. Shays. How do you react when you hear this mantra that 
says we are taking away money from the D.C. system? Aren't you, 
in fact, adding resources by the mere fact that you are adding 
$7 million and you would be having a child they no longer would 
have to educate?
    Chairman Tom Davis. Would the gentleman yield for just a 
moment?
    Mr. Shays. Yes.
    Chairman Tom Davis. This city school spending per pupil is 
just about the highest in the country. It is not just a money 
problem; there is a structural issue, as well.
    Ms. Norton. Mr. Chairman, that is not true. The per pupil 
spending for the people right now is the lowest in the region.
    Mr. Souder. Mr. Chairman, there needs to be some regular 
order.
    Ms. Norton. The chairman knows how to get regular order 
without your intervention.
    Chairman Tom Davis. Thank you very much. I am quoting from 
the National Assessment of Educational Progress Report in terms 
of saying that. If you have some additional figures, Ms. 
Norton, we would be happy to hear them.
    You can answer the question.
    Mr. Shays. Thank you. I can understand the frustration of 
any Member if they don't like something that is happening in 
their district.
    I am just wondering, Mr. Flake, if we provided these 
dollars but we gave the right to the D.C. school system to 
prevent them from being spent, in other words, they just want 
to throw away $7 million, what would your reaction be if we 
made this a voluntary issue and let the people in D.C. decide 
whether or not they are going to take advantage of these 
dollars that are going to be available?
    Mr. Flake. As I mentioned, this is new money. You asked my 
reaction when people say it is taking money out of the system. 
I react the same way as when I am told that we are imposing it 
on the District, when no parent is forced to take a voucher.
    But as far as this money--this money will be appropriated 
and it will sit in a fund that, if it is not taken advantage 
of, will remain in that fund and I suppose accumulate. Given 
the history of the private scholarship programs, however, with 
far more applicants than there was money to fund them, my guess 
is that it will be used.
    Mr. Shays. So the bottom line is, this is a fund available 
to parents that want to draw on it. If they choose to draw on 
it, they don't attend the public school. Therefore, the D.C. 
system does not have to educate that child, but they still have 
not been deprived of any resources. Is that correct?
    Mr. Flake. That is correct.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Cummings.
    Mr. Cummings. This is a very interesting question. I sit on 
the board of my daughter's charter school. What happens is that 
we have seen, in Baltimore, at least, that even if kids come 
out of the school, we are still spending about the same amount 
of money overall, OK, in other words, for the school. Are you 
following me so far?
    Mr. Shays. Yes.
    Mr. Cummings. I am going to go to what you just asked him, 
because you have a little red herring in there.
    The problem is this: that $7 million or whatever it is, 
that $7 million needs to be spent. It is interesting, in Ms. 
Norton's testimony she was very reasonable when she said that, 
OK, we have something, 42, I think, charter schools, 
transformation schools, that are working.
    If there are already people lined up for those and there 
are people who really feel good about them, maybe those are 
some of the schools that don't have the kind of equipment that 
they need. Why not, if you want to spend some extra money, take 
that $7 million, and it might be better used.
    Mr. Shays. You just said ``red herring'' and I have a red 
light, so Mr. Chairman, at least allow me to respond.
    Chairman Tom Davis. I ask unanimous consent to give you an 
additional minute.
    Mr. Shays. Yes.
    Mr. Cummings. That $7 million, if you already have a 
structure there, and the D.C. public schools----
    Mr. Shays. You want it spent somewhere else.
    Mr. Cummings. The problem is, if you have that money to do 
that with, why not put it in something like that?
    Mr. Shays. That is a different issue. With all due respect, 
I think the issue is you would like more money and you would 
like the $7 million spent somewhere else. I think it is very 
disingenuous to suggest this is taking money away. This is new 
money. You would like that new money spent somewhere else. I 
think it makes more sense spent here.
    I don't think we would have had a charter school movement 
if we had not had a school choice movement. I think the charter 
school movement is in response to the school choice movement. I 
think this is a great debate.
    I would love to have your program in Bridgeport, CT. If Ms. 
Norton would like to guarantee it would go to Bridgeport, CT, I 
would gladly accept.
    Chairman Tom Davis. Thank you.
    Mr. Waxman.
    Mr. Waxman. Mr. Chairman, I realize we have other panelists 
waiting, but we are in an awkward situation where we have 
everybody here talking about schools in Ms. Norton's district. 
I was curious to find Mr. Shays asking for an opportunity to 
respond to Mr. Cummings. The idea of a hearing is to hear what 
witnesses have to say. You do not always have to answer them. 
You may not agree with them.
    I don't know how other colleagues would feel if we had a 
hearing on schools in their district or hospitals in their 
district, and everybody else has a view on it. But the one who 
has knowledge about it is Ms. Norton, so I yield my time to 
her, although I would hope that we could move quickly through 
this group so we can hear from the others who I think can tell 
us more about Washington from their own experience in the 
District itself.
    Ms. Norton.
    Ms. Norton. Just to clarify, I think my good friend, Mr. 
Shays, absolutely confused the issue. The District--certainly 
Mr. Cummings was not claiming that there was anything coming 
out of the District of Columbia funds. But it is not true that 
there is any such thing as new money; this money comes out of 
the Federal education pot.
    The reason that every referendum has failed is that every 
knowledgeable parent in the United States knows that it comes 
out of that pot, and what comes out of that pot is not 
available for their public schools.
    That is the same for the District of Columbia. It is 
Federal money. Yes, it is new money for us. It comes out of the 
Federal pot at a time when the District has a huge unfunded 
mandate from the Leave No Child Behind bill that is going to 
result in huge dropouts in our schools.
    Mr. Cummings. Mr. Chairman, that was the point I was trying 
to make.
    Mr. Waxman. That is an interesting point, because if we 
wanted to do something for the District of Columbia on a pilot 
project basis, maybe we should treat it unlike we treat other 
States: fund the mandates we place on the District of Columbia. 
When we tell them to do things, give them the money and let 
them make decisions on how best to use that money, rather than 
mandate things for them to do that they can't afford to do 
without taking money away from other areas; and then giving 
them some more money and saying, here is some extra money for 
you, and then telling them how they have to use that money.
    Is that the point you wanted to make?
    Chairman Tom Davis. Mr. Souder.
    Mr. Souder. Mr. Chairman, I came to this hearing at the 
beginning, listened to complete opening statements on the other 
side, many of which went over the time limit. I have a meeting 
with the Speaker and will not be able to stay.
    I would like to make a couple of comments and ask a couple 
of questions. I have a high level of frustration similar to 
what my colleague from Connecticut said. First, I would like to 
ask Mr. Flake a couple of questions.
    Is this an appropriations bill or an authorizing bill?
    Mr. Flake. This is an authorizing bill.
    Mr. Souder. In an authorizing bill, is there a pot of money 
that goes to education or not?
    Mr. Flake. No.
    Mr. Souder. If it then was appropriated, does this say that 
it has to come from a fixed amount, or are you proposing in 
your bill, since it is raising the authorizing level, that 
thus, if it would pass in the appropriations, there should be 
more appropriations dollars?
    Mr. Flake. The President has, in his budget request, 
allowed for programs of this type. This fits within that 
request. We have passed a budget resolution here which takes 
into account the President's budget figures, so the money is 
there.
    Mr. Souder. Another thing we often hear in this type of 
legislation is that when we take a pupil out of the public 
school system and then the State match goes down, that 
therefore there is a reduction in the public school funding.
    But in the case of the District of Columbia that would not 
be true, because their per pupil spending does not come from 
the State, it comes from us. It would not be reduced if someone 
used a voucher. Is that not true?
    Mr. Flake. That is my understanding.
    Mr. Souder. So there wouldn't be any reduction. We are 
dealing more in a debatable structure on an authorizing bill 
whether it would reduce education spending.
    Do you know of any Member in the U.S. House of 
Representatives, if they were being offered $45 million 
additional in their district in authorizing, that would oppose 
that bill?
    Mr. Flake. I can't think of any quickly.
    Mr. Souder. My reaction to that is if the District of 
Columbia does not want $45 million additional dollars, I know 
my people in my State would like new money to that extent, and 
perhaps the funds should be designated in the Department of 
Education for districts that are interested in getting new 
money on top of the money they already have, and their 
Representatives are interested in such new money, that would be 
available to those districts.
    I have schools in my district that right now in Fort Wayne 
are laying off teachers. They have all kinds of programs that 
are being cut back. Their schools are having to close down. My 
people in Indiana would find it appalling if I moved money to 
an area that, quite frankly, says, we don't want any new money.
    This is not just about this. If they don't want new money 
from Congress, the question is, we have plenty of needs in our 
own district. I find this an extremely frustrating debate. I 
understand the rationale if this money comes out of existing 
money, then we are back to more traditional debate. If people 
say, this is our Nation's Capital and we want to give people 
money on top of the money they have, if they don't want it, so 
be it; other areas of the country need the money, too.
    Chairman Tom Davis. Any other lines of inquiry here before 
we move to the next panel?
    Mr. Tierney. Mr. Chairman, I would just comment on the one 
thing that seems to be going on here. There is, in my view, at 
least, no room for additional moneys for additional public 
education as long as this country continues to underfund the 
mandates in No Child Left Behind and IDEA's promises that have 
been made over decades.
    We can have as much semantical exercise about this supposed 
authorization or appropriation; new funds, old things; or 
anything on that basis. But the Federal Government, by 
definition, has not stepped up to its obligations here. We have 
not met the 40 percent per pupil expenditure that everybody had 
hoped on the IDEA, and the bill that we just passed in the 
House recently does not do that at all. It does not mandate 
that it be done. It set that money aside. The President got 
everybody's agreement on a No Child Left Behind bill and very 
disingenuously broke his promise, which was to fund the new 
mandates.
    So after agreeing that all of these public programs that 
were in that bill were essential to the educational achievement 
to our children, he, then, before the ink was even dry, put 
forth a budget that cut over 40 of those programs and over $5 
billion short of the commitment.
    If you want to talk about new experiments, after those 
commitments are met, you might want to talk about new money. I 
don't think there can be, by anybody's definition, new Federal 
sources of money until those commitments are met.
    I would close out by saying if we are then going to spend 
Federal money, wouldn't we want to do it with those programs 
that are already working and shown to be working as opposed to 
those that have no credible evidence having been shown to be 
successful?
    Chairman Tom Davis. Mr. Ruppersberger.
    Mr. Ruppersberger. Briefly, there are many issues being 
debated here. We need to keep our eyes on the ball: children 
and education. I would think some of the emotions have ten 
away.
    I would think that this is more important, Mr. Flake, and 
Mr. Cummings, you are next door in Baltimore, that we sit at 
the table with Ms. Norton and understand her point of view. 
Maybe we could resolve some of the issues.
    Second, Mr. Chairman, I yield my time back to Ms. Norton.
    Ms. Norton. I thank the gentleman for yielding. I close 
off.
    Chairman Tom Davis. Thank you very much.
    Let me thank the panel. It is not your typical 
congressional cameo before a committee. We have had some 
questions that obviously sparked a lot of debate.
    We will take a 2-minute recess as we move our next panel 
here. Thank you both very much.
    [Recess.]
    Chairman Tom Davis. We have our second panel, Eugene 
Hickok, the Under Secretary, U.S. Department of Education; 
Mayor Anthony Williams, the District of Columbia; Council 
Member Linda Cropp; and Council Member Kevin Chavous, Chair of 
the Committee on Education, Libraries, and Recreation.
    It is a policy of this committee to swear our witnesses, so 
if you would just stand with me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you all.
    Why don't we start with Secretary Hickok, and move to the 
Mayor, Ms. Cropp, and Mr. Chavous.
    We have a lot in front of us. Your statements are the in 
the record. I will not strictly adhere to the 5-minute rule. We 
know this is an important issue for the city. There are a lot 
of emotions on this. We want to make sure you have your say, 
but the faster we get through this, I think we can get to the 
questions. Thank you.
    Mr. Secretary, thanks for being with us.

 STATEMENTS OF EUGENE HICKOK, UNDER SECRETARY, U.S. DEPARTMENT 
  OF EDUCATION; MAYOR ANTHONY WILLIAMS, DISTRICT OF COLUMBIA; 
LINDA CROPP, CHAIRMAN, DISTRICT OF COLUMBIA COUNCIL; AND KEVIN 
    CHAVOUS, CHAIR, COMMITTEE ON EDUCATION, LIBRARIES, AND 
                           RECREATION

    Mr. Hickok. Thank you, Mr. Chairman and the rest of the 
committee. Thank you for the opportunity to represent Secretary 
Page and the administration as we discuss this very important 
issue. I want to say it is an honor to represent Secretary 
Paige. I must say it is an honor to share this table with these 
individuals from the District.
    I think this is a historic conversation, the first of many. 
I think it has the potential to forge a new partnership between 
the Federal Government and the good people of the great city, 
and has the potential to create a new vision of American urban 
education where a new vision is both needed and where it would 
have a huge impact for the rest of America; so I look forward 
to these conversations and many more with our partners in the 
city and in the school district.
    I will say more about that partnership later, perhaps, 
during questions and answers.
    I would like permission to submit my testimony for the 
record.
    Chairman Tom Davis. Without objection, everyone's total 
testimony will be included in the record.
    Mr. Hickok. We need not go over in great detail the current 
status of performance of the school district. It is, by every 
indicator, not doing well, although there have been some recent 
improvements, and we should note those improvements and 
celebrate them.
    In addition, we should not confuse a poor performing school 
district with a lack of effort on the part of individuals 
employed by that school district. That is an important 
distinction. The fact is, hardworking men and women are trying 
desperately to improve the schools.
    But in the long run, we all recognize that improvement is 
not coming as quickly or as dramatically as it must be, and in 
the meantime, children are being lost. This is all about 
children. It is not about schools; it is about students.
    It is not about home rule. Indeed, if you want to believe 
in a home rule, let the home rule by allowing parents to choose 
the school for their child.
    And it is not about money. Indeed, we believe the 
President's budget includes more than enough support for D.C. 
public schools, including charter schools. Our request for the 
Department of Education elementary and secondary education 
formula programs will provide $92 million to the District in 
2004, an increase of 15 percent.
    That doesn't mean additional money shouldn't be discussed, 
and it doesn't mean that money doesn't matter; it means this is 
about more than money. It is about more than money: It is about 
ideas and individuals and opportunities.
    It has been argued that any voucher program will cream 
students, the very best students, from existing public schools. 
The evidence nationwide is contrary to that, both in privately 
funded voucher programs and publicly funded voucher programs.
    The most powerful argument in favor of school choice in its 
broadest sense is that while it leads to greater opportunities 
for families to attend schools that work, at the same time it 
drives improvements in existing public schools. The evidence 
from Milwaukee is overwhelming.
    So for those who would drive this false dichotomy between 
public education and nonpublic choice, it is a false dichotomy. 
This is about transforming the nature of public education by 
putting the public first, the parents first, as they exercise 
options and choices.
    It is for these reasons that the administration has put 
forward our proposal. The outlines of the proposal are very 
simple. The budget request from the President for fiscal year 
2004 includes $75 for a National Choice Incentive Fund. Under 
this program, the Department would make grants to support 
projects that provide low-income parents, particularly those 
with children attending low-performing schools, with the 
opportunity, not the requirement--to transfer their children to 
higher-performing public and private schools, including charter 
schools. A portion of that $75 million will be reserved for 
students and parents in the District of Columbia school 
district.
    We think accountability is important. This administration 
has been consistent about the need for accountability in 
education, and our proposal includes provisions to make sure 
there are ways to determine the educational impact of a choice 
program upon those students who exercise that choice.
    We have heard that the administration is trying to impose 
this initiative upon the school district. It could not be 
farther from the truth. This is all about applying for the 
money. The District, an LEA anywhere, or a nonprofit with a 
record of accomplishment applies for this money. These are 
competitive grants. Then, of course, parents choose to 
participate.
    We have heard that the initiative might bleed money from 
the District's public schools. That is just not the case. This 
choice incentive fund proposed by the President represents new 
money.
    Now, we have heard complaints that we are supporting a 
voucher program when we could be supporting the District's 
charter schools, instead. Again, I would argue that is a false 
dichotomy. We support the charter schools, both in terms of 
budget and in terms of policy. What is ironic is many who are 
now voicing this concern have become new advocates, it seems to 
us, for charter schools.
    In the end, I want to go back to my first comment: this is 
about a new partnership. No one has all the answers, but we 
know the status quo is not working. Sitting at this table are 
individuals who are committed to changing the status quo and 
fixing these schools and helping these kids. I am honored to be 
able to share the table with them.
    [The prepared statement of Mr. Hickok follows:]

    [GRAPHIC] [TIFF OMITTED] T8196.016
    
    [GRAPHIC] [TIFF OMITTED] T8196.017
    
    [GRAPHIC] [TIFF OMITTED] T8196.018
    
    [GRAPHIC] [TIFF OMITTED] T8196.019
    
    [GRAPHIC] [TIFF OMITTED] T8196.020
    
    [GRAPHIC] [TIFF OMITTED] T8196.021
    
    [GRAPHIC] [TIFF OMITTED] T8196.022
    
    [GRAPHIC] [TIFF OMITTED] T8196.023
    
    [GRAPHIC] [TIFF OMITTED] T8196.024
    
    Chairman Tom Davis. We now hear from the Mayor of the 
District of Columbia, the Honorable Tony Williams. Tony, you 
have been here many times. Thank you very much for joining us 
again.
    Mayor Williams. Thank you, Mr. Chairman, and thank you 
ranking member, Mr. Waxman. Congresswoman Norton, distinguished 
members, distinguished guests, all the parents. As the Under 
Secretary has and as have my colleagues, I have submitted my 
full testimony for the record. I will just simply share with 
you some of the highlights.
    Highlight No. 1, Mr. Chairman, is that there is not a mayor 
in this country who doesn't have education as his or her top 
priority, because it is clear that to revive your city, to 
bring more people back to your city, to provide the kind of 
quality in a city that everyone would like, education has to be 
the cornerstone.
    It is also true, in all humility--and this has nothing to 
do with me personally, it is just the office--that there is not 
a critique of my job that does not include performance of 
education. So whether I like it or not, authority and 
responsibility, however functionally they may be aligned, are 
aligned in practice.
    Many things are happening. Point No. 2, many good things 
are happening in the schools. The Transformation Initiative has 
been cited a number of times. I think the Transformation 
Initiative does show signs of progress. Our administration has 
worked with the schools cooperatively.
    There are two examples of this, one, the wrap-around 
services program to provide extra supports for low-income 
children in our schools. We work together with our agencies on 
that.
    Another facet of that is working cooperatively with the 
Council, and specifically with the Council Chair Chavous on an 
initiative to save special education dollars. We were slated to 
save $30 million in special education dollars in 2005 and we 
are on target to do that. We are very proud of that.
    A generous mention of our charter school program. We have 
provided, the leadership of this city, full funding for our 
charter schools. Yes, we have a facilities need, but that 
funding has been there.
    Another final good thing: Money is not everything. But it 
is part of the solution. We have provided an over 40 percent 
increase in local funding for our schools.
    The fact is, many good things are happening in our schools, 
but there is another fact. That is that tens of thousands of 
students are still waiting for more choices. I believe that 
while, we are confident in our public schools and their ability 
to get better, it does not mean that I, as the elected Mayor of 
our city, should ignore other educational assets that are 
currently at our disposal.
    For that reason, I welcome the Federal Government's 
interest in our public schools and its interest in the success 
of our District's children so that we can further uplift our 
public schools.
    I will say, the Federal Government ought to assume a three-
pronged, a tripartite approach that includes our private 
parochial schools, our charter schools, and our regular public 
schools.
    In that manner, the Federal Government ought to assume our 
State level costs for special education so our local school 
district is not saddled with costs that, in any other 
jurisdiction, would be borne by the State. The Congress has 
been generous in support of our charter schools, most recently 
by providing $17 million in the 2003 budget for facilities 
support. This level of support ought to be repeated and 
expanded.
    I support the desire to create a pilot scholarship program 
in the District. I believe if done effectively, this program 
would provide even more choices for primarily low-income 
families who currently do not have the same freedom of choice 
enjoyed by their more affluent counterparts.
    Unmistakenly and tragically, there is a choice program for 
grammar schools and education in our society, and it basically 
is residential choice. People move out of an ideal area with 
bad schools. That leaves the worst schools for our lowest-
income citizens. I don't think that is right.
    Understandably, the issue of public support for private and 
parochial school tuitions faces fierce opposition on the other 
side. But I believe research has confirmed that school vouchers 
increase parental satisfaction, boost academic achievement of 
inner city African American students, and increase the 
likelihood that students will attend and complete college.
    No research, to my estimation, has proven that voucher 
programs are detrimental to the students who participate in 
them.
    Now, I believe that any voucher program for our city must 
recognize the reality and the needs of our city and must be 
crafted with full participation of all of our city's 
leadership. For that reason, H.R. 684, the District of Columbia 
Student Scholarship Act, does not do this. The bill does lay 
out precise criteria and principles for the program, but it was 
crafted and introduced without any consultation or input from 
the city's elected leaders. Moreover, it creates a separate 
core corporation staffed mostly by Federal appointees to 
administer the program. I think that is the wrong avenue to go.
    I am pleased that Secretary Paige and the Under Secretary 
and other officials at the department have met with us and 
asked us to join with them in designing a program to expand 
availability.
    What are some of the key principles in my mind? First, that 
there be in foundation of a three-pronged tripartite approach. 
Second, that it do a number of things: One, focus on low-income 
parents and develop a means-tested foundation; two, target 
students in the lowest-performing schools, especially those 
that are not currently slated for transformation; three, 
emphasize opportunities for students who are not currently in 
nonpublic schools; four, seek to have students attend schools 
in the District, and, where possible, in their neighborhoods; 
and finally, require schools to admit all eligible students. In 
cases where grades or schools were oversubscribed, admit 
students based on a lottery. The goal is not to cream the best 
and brightest students, but rather to give the neediest 
children opportunities they otherwise would not have.
    Along with this, I believe there have to be these supports 
I mentioned, and along with that there must be a comprehensive 
accountability evaluation component. Many of the criticisms of 
scholarship programs around the country are that there was not 
enough evaluation. This program includes exactly the kind of 
evaluation we should have.
    The long and short of it is, Mr. Chairman, and members of 
the committee, I think when you boil down all the arguments, 
all the ideology, all the steam and hot air and everything, 
when you get down to the bottom of it, I think you are talking 
about children and parents and their choices.
    We have thousands of children who have asked for 
scholarship programs and are not getting them. We have 
thousands of children who are not getting the education they 
should be getting. I, as the Mayor of our city, can't say no to 
these thousands of young people and their parents and tell them 
that they ought to wait for more choices and opportunities but 
they are not available.
    I don't know whether vouchers are the right thing for other 
cities and States, and I don't know whether they will be the 
right thing for our city in years to come; but right now, 
today, at this moment, I believe I have an obligation to 
represent all the children of our city. I humbly assert that 
this is leadership and I humbly assert that this is democracy.
    I thank all the members of the committee for the 
opportunity to testify in a very certainly lively debate but an 
important debate for our city and its future.
    Chairman Tom Davis. Thank you, Mr. Mayor.
    [The prepared statement of Mayor Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T8196.025
    
    [GRAPHIC] [TIFF OMITTED] T8196.026
    
    [GRAPHIC] [TIFF OMITTED] T8196.027
    
    [GRAPHIC] [TIFF OMITTED] T8196.028
    
    [GRAPHIC] [TIFF OMITTED] T8196.029
    
    [GRAPHIC] [TIFF OMITTED] T8196.030
    
    [GRAPHIC] [TIFF OMITTED] T8196.031
    
    Chairman Tom Davis. Councilmember Cropp. Madam Chairman, 
welcome again.
    Ms. Cropp. Thank you very much, Mr. Chairman, ranking 
member, Mr. Waxman, our delegate, Eleanor Holmes Norton, and 
other members of the committee. I am Linda W. Cropp, chairman 
of the Council of the District of Columbia. I am pleased to 
appear before you today with my colleague, council member Kevin 
Chavous, to testify on alternative schools and educational 
reform from the District of Columbia.
    I am prepared to make introductory remarks, with Mr. 
Chavous as chairman of the Council's Committee on Education, 
Libraries and Recreation, providing additional testimony.
    Let me first state that we appreciate the interest the 
President and his administration and Members of Congress have 
taken with respect to the District's educational system. There 
are opportunities to improve our schools, and we welcome 
collaborative efforts to help us reach our goals of providing 
an exemplary education to District students.
    We in the District recognize the need to overhaul our 
schools, and we believe school choice is essential to public 
education reform. But each community must be permitted the 
freedom to decide the best vehicle for public education reform.
    Education advocates, parents, teachers, members of the 
Council and the Board of Education of the District of Columbia 
have determined the best vehicle for reform is charter schools 
in the District, to improve our public schools. That decision 
was codified with the enactment of D.C. law 11-135, the Public 
Charter Schools Act of 1996. Our charter school law endeavors 
to increase learning opportunities for all students, encourage 
diverse approaches in learning, provide parents with expanded 
choices, provide public schools with a method to change, and 
offer community the options of independent public schools that 
are free of most statutes, rules, and regulations.
    It appears to be working. This year, approximately 18 
percent of public school children or some 11,450 students, 
attend public charter schools. This is among the highest 
percentage in the Nation, and it is projected to increase.
    In addition, the District has more charter schools than any 
comparable jurisdiction in the country, 35 in number. Choice 
already exists in the District of Columbia. The Council 
believes that residents must be allowed to make their own 
educational choices; that the will of residents and local 
officials is to pursue educational reform and to provide 
alternatives for children; and that the residents of the 
District of Columbia should be allowed to resolve educational 
issues locally, as do other jurisdictions.
    We are still in debate on a lot of issues, but we will do 
it as we do with most other issues. Thank you, and I would like 
to refer to the Chair of our education committee.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Ms. Cropp follows:]

    [GRAPHIC] [TIFF OMITTED] T8196.032
    
    [GRAPHIC] [TIFF OMITTED] T8196.033
    
    Chairman Tom Davis. Council member Chavous, you have been 
here before. Welcome back.
    Mr. Chavous. Thank you, Chairman Davis, Congresswoman 
Norton, and members of the committee. It is with great pleasure 
that I appear before you today to discuss educational reform 
here in our great city, the District of Columbia, and the 
availability of school choice. These two issues are of great 
importance to me, not only as chair of the Council in the 
District of Columbia's Committee on Education, the Libraries, 
and Recreation; but as the council member for ward 7 located 
east of the Anacostia River, which has the largest population 
of school-age children in the city.
    Public education has long been viewed as the vehicle for 
social mobility and economic success here in this country. Many 
have used public education and moved themselves and their 
families from poverty to prosperity. As such, its value and 
purpose cannot be underestimated. But I think few would 
disagree that this vehicle has stalled. We know that across the 
country, most urban school districts are falling apart, and 
parents are frustrated and concerned about their children's 
academic performance and future.
    The sad fact is that here in the District of Columbia, we 
are no different than many other jurisdictions. At present, 
there are over 77,000 school-aged children in public schools in 
the District. Of these children, over 66,000 attend the 
District of Columbia public schools and close to 12,000 attend 
public charter schools.
    In an effort to educate these children, the government of 
the District of Columbia spent more than $2 billion over the 
last 4 years. Despite all of our best financial efforts, many 
of our children do not perform at or above grade level. 
Unfortunately, nearly half who enter high school do not 
graduate.
    In addition, since 1994, we have experienced a 63 percent 
increase in special education. That amounts to nearly 17 
percent of our school-aged children having been identified as 
having special needs, among the largest percentage in the 
country.
    Fortunately, under Dr. Paul Vance's leadership, reform 
efforts are underway. DCPS has a renewed commitment to early 
childhood education, and local school principal and teacher 
development. In working with the Mayor, as Mayor Williams 
mentioned in his testimony, through the Council to create a 
Special Education Task Force, we have realized $20 million in 
savings.
    Candidly, however, the main impetus for reform in this city 
has been the emergence of charter schools in the District of 
Columbia. The competition created by the existence of charter 
schools has worked in providing parents with a viable 
alternative to traditional public schools. Charter schools have 
opened the arena of choice, the centerpiece of true education 
reform.
    I will say parenthetically that the Council did also pass 
legislation allowing for the board of education to be a charter 
school authorizer soon after the Federal legislation was 
passed. Frankly, from the Council's point of view and for me 
personally, no one bears more scars as it relates to the 
charter school promotion effort. Personally, I have been 
ridiculed, castigated, and criticized for my support of charter 
schools. I am so pleased that so many people now are supporting 
the charter schools here in this city.
    After years of overseeing education reform efforts, I am 
absolutely convinced that no traditional school system can 
reform itself internally. Reform can only occur through 
pressure, and the best pressure comes by way of school choice. 
One size does not fit all. Different teaching methods, as well 
as different learning environments, affect student performance. 
Some students excel in a group setting while others succeed as 
a result of one-on-one instruction.
    This is why I believe that we must explore every option 
available for helping our children succeed in the classroom. 
For those reasons, Mr. Chairman, I strongly support a three-
sector approach to education reform that will provide new 
Federal dollars to DCPS to support their State level special 
education costs; or, as Ms. Cafritz has recommended, to help 
with some of the facilities needs, along with new Federal 
dollars to public charter schools and new Federal dollars for 
proposed voucher or scholarship programs.
    Bear in mind that this three-sector strategy is not found 
in H.R. 684 proposed by Congressman Flake, who, when I found 
out he was going to introduce this, I did ask him not to do so; 
which also, unfortunately, would allow vouchers to be used for 
schools in Maryland and Virginia.
    Therefore, I am opposed to H.R. 684, as I was opposed to 
Congressman Armey's bill, as well.
    As it relates to the notion of vouchers as an education 
reform tool, I am more receptive and open to that notion, 
largely based on the success of our charter schools. Expanded 
school choice, I believe, leads to expanded educational 
opportunities for parents, which, more than anything, serves to 
strengthen our traditional public schools.
    I close with an anecdotal reference to a parent who 
testified at a public hearing held by my committee on school 
choice in the District. The parent testified that when her 
first son entered the seventh grade at a DCPS middle school 6 
years ago, there were promises and claims of reform. This was 
when the control board took over under General Becton. She 
believed those promises, she testified, and she kept her son in 
DCPS. As a result, her son graduated from an academically 
underperforming high school. She emphatically testified just 
recently that her second son, who was about to enter seventh 
grade, could not afford to wait 3 to 6 years for reform.
    Because of her testimony and conversations with numerous 
parents who are frustrated, I have become convinced that 
something must be done in the interim to help assume parents' 
children succeed.
    Mr. Chairman, this is the greatest city in the world, but 
our true greatness remains hidden behind the closed doors of 
inequitable educational opportunities for all of our children. 
As a public official, as our citizen, I must be and am willing 
to stand up and recommend what may at first glance appear to be 
an unorthodox solution, but these are unorthodox times.
    Finally, I believe that a three-sector approach that would 
make additional Federal dollars available to the public schools 
and public charter schools, coupled with the parental option of 
applying for scholarships or vouchers, would serve the best 
interests of the resi-
dents of the District of Columbia, and, indeed, the Nation.
    Once again, Mr. Chairman, thank you for inviting me here to 
testify. I am available to respond to any questions you may 
have.
    [The prepared statement of Mr. Chavous follows:]

    [GRAPHIC] [TIFF OMITTED] T8196.034
    
    [GRAPHIC] [TIFF OMITTED] T8196.035
    
    [GRAPHIC] [TIFF OMITTED] T8196.036
    
    [GRAPHIC] [TIFF OMITTED] T8196.037
    
    [GRAPHIC] [TIFF OMITTED] T8196.038
    
    [GRAPHIC] [TIFF OMITTED] T8196.039
    
    [GRAPHIC] [TIFF OMITTED] T8196.040
    
    Chairman Tom Davis. Let me start by thanking all of you for 
what I consider to be courageous and historic statements. I 
think there is a recognition here that you have a city school 
system in crisis, and you are willing to explore any and all 
methods to improve the choices and opportunities for young 
people in the city. That is what we are about.
    Now we have to wrestle with how do we do that. If we have 
additional resources, it clearly helps in all of these areas, 
as you have outlined. That is where we want to be in the 
discussion. We are not going to do it this way or that way, but 
let us collaborate and see how we can use these additional 
resources so it is helping these kids.
    For the kids who are stuck in the worst-performing schools, 
who are in third grade this year, this is their only shot. They 
will never see third grade again. If they fall behind this 
year, where do they pick it up? Not within this system today.
    I think we have rightfully praised the fact that there is 
some progress being made, and people are working hard to do it, 
but let us face it, this city has tough demographics. I come 
from a single-parent home. My mother brought up five kids, but 
she was educated, and she understood that the way you got ahead 
in life was education.
    We are dealing with, in some cases kids, who don't have 
parents home at night, whose parents don't have a college 
education, and we have to deal with that. It means new 
strategies, it means going outside the box. We are trying to 
work together to see if we can get you some additional 
resources. The willingness of this administration to step up to 
the plate on this offer, any elected leader would want to say, 
let us look at your resources and see how we can structure 
them.
    Mr. Chavous, let me ask you, don't right now a lot of city 
students, particularly those that are in special education 
programs--city money is going to a lot of private schools right 
now to pay for these kids in special education, because a lot 
of them are in my district; isn't that correct?
    Mr. Chavous. That is correct. In fact, one of Ms. Cropp's 
and my colleagues, Mr. Katania, said we already have a voucher 
program in the District because we pay an exorbitant of private 
school tuition for special needs children.
    On the positive side of that, though, based on some of the 
efforts with the Special Education Task Force that the Mayor 
and I co-chair, we are building in-house capacity to bring a 
lot of those children back. The beauty of the notion of having 
the Federal Government serve in the role of the State and 
assume some of our State level special education costs is that 
we would see greater support and greater resources then being 
able to be used for our nonspecial education children.
    Chairman Tom Davis. We used to call them the RKs, the 
regular kids. If you are gifted and talented you have some 
great programs, and if you have special needs we take care of 
you; but the regular kids are the ones, oftentimes there are no 
special programs for them.
    Every kid is unique, as you know. I understand. I just 
wanted to get that on the record, because I think it is 
important to understand, there are precedents for public 
schools paying money into private schools. It happens all the 
time, particularly in some of these special needs areas, where 
the school system just cannot crank up enough options because 
of economies of scale and everything else to go through that.
    Ms. Cropp, are D.C. charter schools having a hard time 
getting available schools from the public schools right now? 
Are there buildings out there they would like to have that they 
somehow are not able to? Is that going well? Can we improve on 
that? Is there anything we can do?
    Ms. Cropp. We need to improve on that. It is not moving as 
quickly as we would like for our charter schools to have 
accessibility to some of the traditional public schools.
    The Council has been in favor of that, and we are working 
now to work out a better process. Even when there are some 
schools that may not be at full capacity, the charter schools 
and the traditional public schools should have the ability to 
share even those facilities so we can get the best use of space 
possible.
    So we have a long way to go there. We are not where we want 
to be, but we are moving in the right direction.
    Chairman Tom Davis. OK. Let me ask this: Right now if you 
send a child with disabilities to a private school, it has to 
have some preclearance. You can't just send them anywhere, 
right? There is a check on where they can go. You are not going 
to send them to some fly by-night school; is that correct?
    Mr. Chavous. Mr. Chairman, that is correct.
    Chairman Tom Davis. Let me just followup. I ask that 
because if you were to allow any kind of voucher program, we 
would want to have a check on the schools that they could go 
to. I don't know who accredits the school they go to or 
whatever, but you would not want them to go to a system that 
would be worse than what we have. I would envision some kind of 
a check.
    Let me just ask, Mr. Hickok, though my time is up, wouldn't 
you want to have some check on where they could go? It wouldn't 
just be freelance; is that correct?
    Mr. Hickok. I think the most immediate check is the choice 
of the parent. The goal here is to give options to parents so 
they can make informed choices for their kids. In most places, 
nonpublic schools have accreditation policies. They have all 
kinds of policies with regard to the curriculum they offer.
    So the goal here is not to impose, at least in my opinion--
to impose new restrictions on choices, but to open up more 
opportunities for choices.
    Chairman Tom Davis. But wouldn't you agree, just to 
followup on this, that if we are going to be spending this 
money out to parents, we want to give them more choice. But you 
aren't saying they can pick a bad school and we are going to 
pay for it?
    Mr. Hickok. No.
    Chairman Tom Davis. There would have to be some criteria. 
You would be open to that, wouldn't you?
    Mr. Hickok. Sure.
    Chairman Tom Davis. I think that would be a very critical 
component to me, that they would have additional choices. It 
would not be unlimited choices, but there are some choices that 
frankly we would not feel comfortable with, in one part or 
another.
    Mr. Hickok. Certainly it would be part of the discussion.
    Chairman Tom Davis. Mayor Williams, do you feel the same 
way?
    Mayor Williams. Absolutely.
    Chairman Tom Davis. This is a work in process. Ms. Norton 
and I have dialogd about this issue as well, and right now we 
are a long way apart. But with additional resources and some of 
the other facts that come to light, you hate to throw these 
resources out the window. I think any wide awake public 
official says how can I get these, not to the institution, not 
to the system, but to the people that need it. That is what we 
are trying to figure out, an appropriate way of doing that.
    Ms. Norton.
    Ms. Norton. You are certainly right, Mr. Chairman, that you 
and I have never had a problem we couldn't figure out. We are 
from opposite parties and opposite sides of the river.
    If that is true, I should imagine that it is going to be 
true of Mr. Chavous and Ms. Cropp and Mayor Williams and even 
Under Secretary Hickok. I want to thank all these witnesses for 
being here, and thank you for taking the time to prepare your 
testimony.
    Mayor Williams, a very high-level official, is the way I 
will describe him, some months ago came into the District of 
Columbia to speak to a group of Republicans in our city. 
Several of them came back to me and told me about a question 
that was asked.
    This person, a White House official, a highly placed 
official, was asked about vouchers. He responded that the 
President did not believe that vouchers should be imposed, 
because it doesn't work terribly well if you impose things on 
people. I frankly relaxed after that. I was just very pleased 
to hear it.
    I wonder whether, in light of that, you don't believe that 
had you made the case that our charter schools and 
transformation schools were cruelly underfunded, had to be cut, 
and that you wanted the money for these alternative schools, 
are you saying to me that you believe that the White House 
would have said no, you can only have it if you accept 
vouchers?
    Chairman Tom Davis. Would the gentlewoman yield?
    Ms. Norton. I have asked the question, and I want to hear 
the answer. I don't want you to answer for him, Mr. Chairman. I 
am the only one here on this side of the aisle. I just want to 
hear from him. I want to hear an answer.
    Chairman Tom Davis. I just wanted to amplify on your 
question. You can take your 5 minutes. I will hold you to that.
    Mayor Williams. I'm looking at the fact that under this 
program--without getting into all the details, I'm looking at 
this as a proposal wherein the District leadership, public and 
private, can work with the Federal authorities to craft a 
program using new money; and using new money essentially 
leaves, I think, the regular public schools and the charter 
schools in a better position than they are now.
    Ms. Norton. How are you going to do that?
    Mr. Hickok testified that there was $75 million available 
for a number of school districts. Do you have any assurance 
from the administration that the District of Columbia will get 
more than some share of that $75 million that apparently was 
originally meant for eight school districts?
    Mayor Williams. I don't have any exact assurance. But what 
I do know is that were this program to offer let us say we are 
talking about 2,000, 3,000 students, whatever the number is, 
these students would exercise a choice that I think parents 
have already demonstrated.
    We would consider our regular funding to the public 
schools, notwithstanding the fact that they had lost those 
2,000 or 3,000 students, so they would be in a better shape 
than they are now. Even in districts around the country where 
we actually have had dollars taken from the public schools, 
over a period of time of four or five times--Milwaukee, I will 
say--there is actually more money going into the public schools 
now.
    Ms. Norton. At the same time, if all of that money went to 
the charter schools and transformation schools, you would have 
to make less cuts of the kind you have made even this year? One 
would have to do the math, but one wonders whether or not you 
would win more the way you have just described or some other 
way.
    In any case, you have parents knocking on the door of the 
charter schools. You have parents in your transformation 
schools. You have parents in those same areas that want 
transformation schools, and you are unable to meet that need.
    Let me ask you, Mr. Chavous, I understand that you 
indicated that funds needed to allow public school teachers in 
the charter schools to get the same raises as public school 
teachers in the public schools should come somehow from the 
Congress of the United States.
    One, do you fear a lawsuit? And, two, on what basis do you 
believe this is the responsibility of the Congress of the 
United States? And if it is, why hasn't the Congress been 
paying for the increases, the annual increases to charter 
school teachers all along?
    Mr. Chavous. Well, I have supported the $6 million pay 
raise that charter school teachers should get. And the reason 
why we put it in the Budget Request Act is we couldn't fund it 
at that time. But my ultimate plan is to not only find a way to 
get additional funding as we get into the fiscal year, once we 
get our revenues back and ask the Mayor for reprogramming and 
to do what we have always done. We have fully funded charter 
schools based on their projected revenues. That's why my 
committee has made sure that we have grown from zero dollars in 
1998 to $138 million in 2004. And I have been the one 
advocating that the charter school teachers be treated on par 
with our teachers at traditional schools.
    And, yes, I think that we may be open to a lawsuit. But, 
frankly, that may help jump-start more local commitment in 
dollars, which I've urged my colleagues and the Mayor to commit 
to.
    Ms. Norton. But you are committed to making sure that these 
public charter school teachers get the same raise as the public 
school teachers?
    Mr. Chavous. No question about it.
    Ms. Norton. That's very important. Thank you.
    Mr. Chavous, while I have you, you have said--first of all, 
I'm glad that you clarified what the nature of the consultation 
was, sir. Your name was surely called out.
    Mr. Chavous. I'm not surprised.
    Ms. Norton. When I asked Mr. Flake, who insisted that he 
was imposing nothing on the District--when I asked him who had 
he consulted in the District, lo and behold, he outed your name 
and said nothing further. You indicated that you asked him not 
to file the bill. Did you ask him to file any other kind of 
bill?
    Mr. Chavous. No. In fact, you and I chatted about this once 
before. When I heard he was going to introduce the bill, and I 
knew it was similar to Armey's bill, I rushed down here and 
waited for him and I urged him not to do so. I said that there 
should not be any imposition on the District in this regard; 
that it should be a collaborative effort where Federal 
officials work with you, work with the Mayor, work with the 
Council, work with the school board, and craft something that 
makes sense for our residents. And I told him at the time he 
should wait and work with you and work with the city.
    Ms. Norton. That of course would take--collaboration would 
take an agreement of the majority of the colleagues on the 
Council.
    Mr. Chavous. Well, I think that, as Mrs. Cropp said, we 
have all been debating this issue about school choice just as 
we had a spirited debate over charters several years ago, and 
we are still going through that process.
    Chairman Tom Davis. The gentlelady's time has expired.
    Ms. Norton. Finally indicate, because he brought her 
testimony, that apparently at the moment there has been no 
change, because Ms. Cropp testifies members of the Council of 
the District of Columbia have already determined that the best 
vehicle for reform is to offer charter schools and improve the 
public schools. That's the testimony before us.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Let me ask Ms. Cropp. That's the 
testimony before you today. But if we can work with you, Mr. 
Chavous, the Mayor, Ms. Norton, other members of the committee 
to try to resolve, get some more resources, you would be happy 
to look at that, wouldn't you?
    Ms. Cropp. As stated in my testimony, that is the position 
of the Council. But we are always open for getting additional 
dollars into the District of Columbia. The manner in which we 
get them is what is debatable.
    Chairman Tom Davis. I think we have to be open on this 
issue. I think, let's take a look at the program, let's work 
together and collaborate. If either side takes an ideological 
point of view because trying to please some interest group or 
another interest group or something, we are never going to get 
anywhere, and this system is going to continue to go down, 
down, down. But if we will try to be innovative, if we can look 
at additional resources, which are clearly part of the answer, 
who knows what we can come up with.
    Ms. Cropp. Our doors are open to look for collaborative 
efforts for us to get additional resources in this area and 
many other areas where the District of Columbia has structural 
imbalances.
    Chairman Tom Davis. That's where we are. And it's not just 
structural imbalance, it's just a way. Because at the end of 
the day it isn't about a system, it's not about a government; 
it is about kids, and it is about a collaboration and 
cooperation between all of these different areas.
    You know, we had a G.I. bill for colleges where we gave 
people who came back from the war vouchers where they could go 
to colleges of their choice. It had to be accredited. And it 
worked very, very well. Taking that down one level to the high 
school level, because the public education has always had more 
controversy. But we want to try to work through as many of the 
objections that are raised, some of them very legitimate, the 
concerns that are raised. But at the same time we see an 
opportunity, at least from my perspective, to get more help to 
kids down the street that right now, as Mr. Chavous testified, 
they have been there 1, 2, 3, 4 years saying improvement, just 
wait until next year. And they don't get a next year; and 
pretty soon they are out of the system, they are competing with 
kids coming out of my county where your SAT scores are high, 
where it's an acknowledged school system for the same slots in 
colleges and universities. It's not fair to them.
    Now, what the right answer is at this point I am open on, 
and I think our committee members are open on, and I think the 
administration, from what I understand, Secretary Hickok, is 
open on. And that's why any self-respecting mayor is going to 
take a look at additional resources, looking at the people 
there and saying, sure, let's open up the dialog.
    I gather, Mayor Williams, from your testimony and from Mr. 
Chavous' as well, that you are looking for additional resources 
in addition to what may go for private schools. Is that a 
fairly accurate assumption?
    Mayor Williams. That's correct, because I think one of the 
great attributes of this program is it allows us for the first 
time to really measure outcomes. But I think to really be fully 
successful, we need to really relieve our regular publics of 
these really extraordinary state level costs.
    Chairman Tom Davis. Let me ask Dr. Hickok. What I have 
done, I've sent Mr. Shays over, he's voting; he's going to come 
back and we'll keep the hearing going. That will allow you, Ms. 
Norton, the opportunity for a longer time to question as well. 
We are having a vote now, and there will be 10 minutes of 
debate after that and then another series of votes. That will 
give us a few extra moments.
    Yes, Mr. Waxman.
    Mr. Waxman. I'm going to catch a flight, so I wonder if I 
can take some of my time.
    Chairman Tom Davis. I will stop my second round of 
questions now and allow the gentleman from California to ask a 
few questions.
    Mr. Waxman. I was watching some of this on television, 
because we have it piped in, while I had another meeting going 
on. Is the issue whether you are going to get funds at all and 
this is the only way you will get the funds? Or is this the 
best way to get the funds? And I think that seems to me one of 
the key questions. Because if the administration is saying to 
the District of Columbia that you have lots of problems but we 
are not going to help you unless you do what we want, then it 
becomes ideological, which the chairman said he wants to avoid. 
Sometimes the ideology that we're seeing in Washington today 
under this Republican administration is what they want, and 
they want vouchers whether it fits or not. So that's the 
concern I wanted to raise.
    And, Mr. Mayor, give me an answer on that.
    Mayor Williams. I mean, I reached a decision in the context 
of our schools needing modernization funds and relief of these 
costs; but fundamentally I reached the decision thinking about 
the scholarship program privately funded, where you've got 
6,000, 7,000 kids waiting, parents, families waiting in line to 
use these funds. If there is some extra money coming down the 
pike of whatever amount and we can help satisfy that demand, I 
think that's an important thing to do.
    Mr. Waxman. I certainly understand that. If the President 
said to you we want to help the people in the District of 
Columbia, we think education is an important issue and we know 
you need more funds, and he asked you, what would you want to 
do with those funds, what would your recommendation be to him? 
He is telling you how to use the funds. If he said, here are 
the funds, how do you want to use it, what would you do?
    Mayor Williams. I've reached the conclusion that one of the 
first things I would do is address the demands of these 
families. One of the first things I would do is try to look at 
some new approaches and inject some good competition in the 
system. We are all talking about how great the charter schools 
are. They're great because they've injected element of choice 
and competition in the system. And I think on a pilot basis 
this would do that as well.
    Mr. Waxman. Well, choice is good. But if you have choices 
between underfunded alternatives, you are not going to have a 
good choice. So what we need to is make sure that if you've got 
charter and transitional schools, they're funded; and if it's 
public schools, that they're funded. And so those are the 
choices that we often have. If the choice is then to go to a 
private school because that's where we are going to direct the 
dollars, the other schools are going to remain underfunded.
    Let me give you another example. I'm very involved in 
health care issues. Do you know what this administration is 
telling the States? The States are dying. This recession is 
killing them. They don't have the revenues, and they are having 
to cut back as you are on health care. So this administration 
is saying to the Governors, well, under your Medicaid program 
we will give you a little bit more money short-term if you'll 
agree to transform your Medicaid program so we can just walk 
away from the problem and dump it all on you, which means 
inevitably poor people are going to be cut out of health care. 
That's the kind of hard bargaining they are doing there. I'm 
just worried they're doing that same kind on hard bargaining on 
education, which is not in the best interest of the people.
    I'm going to yield to Ms. Norton if you have some points 
that you wanted to raise. But I know you'll get a second round.
    Ms. Norton. I'll get a second round. Let me--on this issue 
of funding. Apparently, the District in no small part because 
the national economy for 2 years now has been unable to raise 
funding for its schools. What programs are going to have to be 
cut in light of that? What school programs are going to have to 
be cut in light of the fact that you have not been able to 
raise with inflation and otherwise fund the programs before 
you?
    Ms. Cropp. Well, let me answer that a bit differently, just 
to say, since 1999, actually, we have raised the school 
system's budget considerably, probably more. Their budget has 
grown more so than any other part of our government, probably 
about $340 million. However, right now I think one of our 
biggest problems, as I look at the school system--and Mr. 
Chavous may have a different answer--but as I look at it, we 
don't know about the No Child Left Behind and the funding for 
that.
    Ms. Norton. We do know about it, though.
    Ms. Cropp. Well, we know that we have to do it. We aren't 
certain about how we are going to do it.
    Ms. Norton. Well, have you looked at the President's 
budget? The President's budget is pretty clear about the No 
Child Left Behind bill.
    Ms. Cropp. Yeah. But we're trying to identify how much we 
will need and how we are going to get the dollars for it, and I 
think that's one of our biggest problems right now.
    Ms. Norton. It is going to have to come out of D.C. dollars 
then.
    Ms. Cropp. Yes. And that's an area of concern right now. We 
have budgeted for the 2004 budget, but we aren't certain on the 
exact amount.
    Mr. Shays [presiding]. You know, this is an issue that we 
will be able to go back and forth, so we are doing 5 minutes 
here, but Ms. Norton will get some more opportunity to ask some 
questions.
    I just want to be somewhat clear. Mayor, I know you, and if 
I say nice things about you, I'm not sure that people would 
take it in the right context, but I will anyway. I think you 
are a great Mayor, and I think you have a very difficult task, 
and I don't think you are ever going to please anyone, and I 
think you knew that when you took this job and you are going to 
be criticized no matter what you do. And I think our two 
Council members know that as well. Don't we? So it becomes easy 
in one way: We just do what we think is right and live with the 
consequences.
    What I'm interested in knowing is whether you all 
conceptually--Mayor, let me tell you what I think your position 
is. Your position is, you are running the city, you have public 
schools, you have private schools. Your first responsibility is 
to your public schools; but if you can get more money for any 
school system that's going to educate your kids, you are going 
to do it. I think that's kind of the way I condense your 
position. Is that a fair summation?
    Mayor Williams. I would just go further and say my first 
responsibility is outcomes for children, regardless of what 
school they attend. And if I can do this coupled with 
additional dollars, certainly I want to do it.
    Mr. Shays. Now----
    Mayor Williams. If you can do a good thing in a good way, 
of course you want to do it.
    Mr. Shays. I think I can answer the question that Ms. 
Norton asked you, and that is, you can be certain that if you 
are willing to see a school system accept some choice school 
money, it's going to be new and additional money. You are not 
going to be depriving any student of anything, because, 
frankly, there is a strong desire on the part of the 
administration to provide this kind of funding. And where most 
logically would we do that in the start? And that's a system 
that we have some jurisdiction over, and that is a system that 
is our Nation's Capital.
    And so I just want to commend you for the recognition that 
this is new money. And I would ask the good doctor if that in 
fact is true.
    Mr. Hickok. The proposal that the President put forth in 
his budget was new money, additional money. And just to clarify 
earlier comments, we also proposed additional money for public 
education in this country, which translates to additional money 
for public education as traditionally understood in Washington, 
DC. So, in essence, we are talking about $75 million for a 
choice incentive fund, a portion of which might go to 
Washington, DC, if Washington, DC, so chooses----
    Ms. Norton. Would the gentleman yield?
    Mr. Hickok [continuing]. Plus additional money under----
    Ms. Norton. Would you just----
    Mr. Hickok [continuing]. No Child Left Behind----
    Ms. Norton. Because you keep raising this.
    Mr. Shays. Now, let me just--yeah, why not?
    Ms. Norton. Because the additional money that the Under 
Secretary claims comes in the context of a budget in which the 
President has vastly underfunded the Leave No Child Behind 
bill. And that's what we mean by one pot. He had made his 
choices, sir, and his choice is less money there, but I'm going 
to give some money to private schools.
    Mr. Hickok. If I may respond.
    Mr. Shays. I'm going to let you respond, and then I'm going 
to jump in. Go on. You have the floor.
    Mr. Hickok. We feel very strongly that the President's 
budget for education, which again contains historic increases 
in education, not only adequately funds No Child Left Behind, 
but we would also point out that in almost every State in this 
country the States have not even finished spending the money 
they received in the past. And so the argument about more money 
will continue, we know that, but one of the arguments we have 
to confront is, is not how much, it's how well it's spent and 
who is spending it. And I think that debate needs to be the 
focus of our attention with regard to No Child Left Behind.
    And Washington, DC, is a very separate set of 
circumstances, and that's not the discussion for today, but I 
do think that a school district such as Washington that spends 
upwards of $10,000, $11,000 per student, that's a lot of money. 
I don't know if it's enough, but that's a lot of money. And we 
have already heard testimony that says we are not getting the 
kind of results we should for that money.
    Mr. Shays. I have a tremendous comfort level that 
Congresses in recent years have continued to add to the 
education budget in significant ways. And we compare them to 
earlier Congresses, we put earlier Congresses, frankly, to 
shame. But there is no question that we could be putting more. 
But as a Republican on the majority side, I do know that 
whatever dollars we put into Choice program are going to be 
above and beyond whatever we were going to put. And if we 
didn't take that Choice money, it's going to go here. And so, 
Mayor, you're dead right. You are dead right. No one can argue 
with that fact. You are dead right.
    I would love to just have the distinction between our two 
Council--I call you Council members. Is that--you both are, 
correct?
    Mr. Chavous. She is the chairman.
    Mr. Shays. She is the chairman, I realize. And you're the 
chairman of the subcommittee. And, Madam Chairwoman, do you 
oppose choice, no matter what, even if it was new and 
additional money? Forget the issue of whether you think it's 
new money. I just want to know, if this is new money available 
to your citizens, are you still going to oppose it?
    Ms. Cropp. At this point I must say my testimony must be 
where the Council is, and the Council has said that it supports 
choice. But it's already made a decision with regard to choice, 
and that is with regard to charter schools.
    Mr. Shays. OK. So let me ask you a question that I would 
love you to put to your Council, and that would be, if this is 
new money--and I would love you to get back to the committee on 
this, because you can't speak for yourself on this. You could 
speak for yourself. How about yourself? Just you, not your 
Council--you won't get in trouble with anyone else, other than 
the people you represent--and that is: If this is new money, 
would you seek to have it and use it? Or would you just say, 
no, thank you, we don't want the money?
    Ms. Cropp. I'm always seeking new money for the District of 
Columbia. And I would hope that the Federal Government would 
step up to the plate and help us with all of our structural 
imbalances, including education. We would like to see more 
money come to education for the District of Columbia. Our 
school buildings are more than 75 years old on an average. So 
we would like to have opportunities for us to get additional 
dollars in our school system.
    Mr. Chavous. Let me answer your question this way, because 
it suggests a practical as well as philosophical response. You 
know, yes, we would like to get more money. And if we're going 
to get money for vouchers, I would like to see money for D.C. 
charters. But from a philosophical point of view, let me tell 
you where I am as chair of the Education Committee. I am 
absolutely convinced that the only way our traditional school 
districts will reform themselves is through choice. All forms 
of choice. I have come to that after being, largely, the 
singular and most visible proponent for charters and being 
castigated by the teachers union and everyone else. And now 
seeing that charters has helped jump-start reform in our 
traditional school district, I believe that if parents have 
more options it makes a difference. And I frankly don't care if 
that's popular or unpopular, it's based on my years of 
experience in working with the school district in their reform 
efforts.
    Mr. Shays. Well, I would just say before giving Ms. Norton 
5 minutes, and then I will come back if I have time as well, to 
say that your position and mine are identical. And I have a 
feeling that you wrestled with it the same way I did. Your 
first instinct was to say no. You may have gone through the 
process I did of saying how many of my friends am I going to 
offend in the community of education. And in the end, I just 
say I couldn't defend it any more intellectually and 
practically, my opposition to what to me makes eminent sense. 
So thank you for your response and all your responses.
    Ms. Norton, if you would like another 5 minutes, I would be 
happy to have you have it.
    Ms. Norton. Thank you very much, Mr. Shays.
    Yes, I have long applauded you, Mr. Chavous, for standing 
up for charter schools, remembering that it was the Federal 
Government's first charter school bill here and it was a 
charter school bill for the District of Columbia. It's 
interesting that in drawing that bill, when Speaker Gingrich 
agreed that we could have all these folks come up--and you 
probably came up, too--as we tried to figure out what should be 
in that bill, there seemed to be less--I did not sense, when 
everybody was doing it, that there was a lot of controversy, 
because people were all involved in saying what they wanted it 
to be. And look what you have brought. Yes, there are people. 
There are people in my own Congressional Black Caucus who are 
against charter schools. I have long differed with them. I do 
agree with you that schools need competition. I think that the 
kind of competition charters give in fact are likely to nudge 
the school system because these are publicly accountable 
schools and they look at folks going in the neighborhood 
charter school, kids--just the same kind of kids; whereas, kids 
going to the Catholic schools, where most of these kids are 
likely to go, as you know, are--may or may not be selected. A 
Catholic school doesn't have to select every school and it 
knows exactly what to do. It has limited resources, it's going 
to take the children that it can take.
    So I don't understand, having created a system so diverse 
as the one you have been the leader on, where--my mind is 
really boggled as I read the different kinds of schools we 
have. I am at a loss to understand particularly when that kind 
of choice would not be available in the Catholic schools where 
most of these people would go, we wouldn't have a school for 
kids in the juvenile system, we wouldn't have arts schools, we 
wouldn't have technology schools, you wouldn't have border 
schools. You wouldn't have all--I mean, you wouldn't have all 
this focus equipment. You wouldn't have even classes as small, 
having given the country, the greatest per capita number of 
schools of diversity, I don't know why you wouldn't want to 
build on that and really prove your point. And I can't 
understand what you prove if the children go outside the system 
to schools that are pretty much the same and--well, let me just 
have you answer.
    Mr. Chavous. And let me respond. First of all, 
Congresswoman Norton, let me thank you for your support of 
charters, because you were very instrumental early on, and many 
times you and I and just a handful of others were standing 
alone. But I do harken back, quickly two points on that time, 
because after Congress did its thing with charters that helped 
us and we did our thing on the Council level, then we had to 
build it. And there was a lot of pain and hardship for those of 
us out in front in building it. And, you know, so even though, 
you know, many people may not recall the angst associated with 
it, there was a lot of hostility with the growing of the 
charter school movement.
    Now, the second point is, I am still one of the strongest 
advocates of charters. And a lot of people don't like to hear 
me say this, but we have 16 to 17 percent of our public school 
children in charter schools. I think we need to get it to 30 
percent. I think you would have real traction, real 
competition.
    The issue about vouchers, which I've always had some 
philosophical problems with, because I think that the illusion 
of vouchers as it's been promoted from a partisan perspective, 
it is the end all, be all. Frankly, it is not. Because even if 
we have a voucher program, we are only going to take care of a 
couple thousand kids. We still have to have fundamental reform 
in DCPS. The thing about vouchers that is most appealing, 
particularly if you have new dollars coming from DCPS and new 
dollars for charters, it grows the options and it expands on 
the competition. Because I have seen first-hand how DCPS has 
responded to the growth of charters, it has fostered reform 
that otherwise wouldn't happen. I think if you add to that 
external pressure, then you build on a better likelihood that 
you will have improvement for most of the children which will 
always be in public schools.
    Ms. Norton. Well, you lose me on why you wouldn't want to 
build on the kind of diversity, far more diversity than you 
have on the Catholic schools, for example, that these kids 
would be going to. But I will accept your answer.
    Mayor Williams quotes a number of studies. Mayor Williams, 
you talk about eight rigorous studies that have confirmed that 
school choice improves the academic achievement of inner city 
African American children. Are you aware that the latest study 
that looks at not just those but at every study that's been 
done--14, I think--concludes--and this is important, since 
you're the one standing up for vouchers no matter what. A 
comprehensive review of 14 studies shows that most gains were 
statistically insignificant; and that any positive effects were 
either substantially or small or subject to question based on 
subsequent studies. And for Mr. Chavous, this study is by Helen 
Ladd, who has looked at all of the studies--goes on to say--and 
she doesn't say that charters can't be--that vouchers can't be 
helpful, but she says: Even if the evidence were to indicate--
and it does not--that competition were a positive force for 
change, it is not clear why such competition would have to come 
from private schools rather than from within the school system. 
Competition can be generated by permitting students to choose 
among traditional public schools or to switch to other charter 
schools.
    I haven't heard from any of you why, in order to have 
competition, in order to have choice, particularly with people 
knocking on your doors--and particularly, Mr. Chavous and Mayor 
Williams, if I may say to you, what I hear from the charter 
schools is that, you know, we are now at grade 5 and we can't 
add grade 6. And it seems to me that is a tragedy for which you 
have to take responsibility. If you can't add grade 6, then the 
children are going to be back in those schools from whence they 
came. And I want to know how you can justify that. I mean, why 
that isn't your priority. Those schools--those children are 
already out. They are going to be dumped back in the schools 
from which they came. They obviously don't want to go, but they 
are going to be dumped back for one reason, and one reason 
only, and that is that you've not provided the money that 
allows them to add a grade.
    Mayor Williams. Under this program, presumably students 
would leave the regular public schools, we are going to 
continue the funding that we have already earmarked for the 
schools. The schools would then have those funds--the 
nonprivate parochial schools would then have those funds to do 
additional modernization, additional improvement. And, No. 2, 
again I would add I believe an important complement of this is 
getting help on modernization for all three branches of the 
system: The regular public schools, the charter schools, and 
the private schools.
    I respect Professor Ladd, but to me it doesn't make any 
sense to say we want to have more competition but the only way 
to have more competition is to limit it. That doesn't make any 
sense to me.
    Mr. Chavous. Can I speak to the charter school facilities 
issue quickly? Because that's what you're addressing.
    I think you're right that the city as a whole has not 
stepped up to the plate to help charters on facilities. That's 
why many of us have been pushing. Frankly, the board of 
education has excess schools as well as the Mayor's inventory 
has excess old schools. And, indeed, with the budget we passed 
earlier this week, we changed the law. We did say that charter 
schools have a preference for all surplus schools. But because 
there was some playing around as to what a preference meant, we 
changed the law with the budget that says charter schools have 
the first preference. Because we want to make it clear that if 
there are vacant school buildings there to be had, that they 
are not used and bundled up for some mega economic development 
project, but they're used for charter schools.
    Ms. Norton. But Mr. Chavous, if you don't have the money 
that allows these charter schools to renovate the schools, what 
good is it to have the goals available?
    Mr. Chavous. The reason why the three-sector approach works 
is because if we have additional dollars that can be used for 
additional bonding authority for modernization, then the 
charters can take those schools that have first preference to 
and have the capital to build.
    Ms. Norton. Yeah. But there's been no testimony even from 
the Federal Government that there are extra dollars.
    Chairman Tom Davis [presiding]. The gentlelady's time has 
expired.
    Mr. Hickok, you wanted to answer Ms. Norton's question as 
well?
    Mr. Hickok. I just wanted to put some facts on the table 
with regard to something you said earlier about schools, 
Catholic schools, and admitting students and so forth. Our data 
tells us that there are about 3,400 vacancies in Catholic 
schools in the city and about 1,160 vacancies in Catholic 
schools. So there is an incentive I think to open those seats 
to students who would want to exercise choice. But the more 
telling thing that we know, and this is the bottom line----
    Ms. Norton. You think that those seats are not open now?
    Chairman Tom Davis. He is on my time now.
    Mr. Hickok. The telling thing is the average black eighth 
grader in a D.C. Catholic school performs better than 72 
percent of his or her public school peers in math.
    Ms. Norton. And they've been.
    Mr. Hickok. The bottom line----
    Ms. Norton. You can't get into those Catholic schools 
unless they choose you and believe that you can do the work 
there.
    Chairman Tom Davis. Ms. Norton, I am just going to have to 
move ahead with my time. We are doing a vote.
    So there are vacancies open in this city right now?
    Mr. Hickok. Yes, sir.
    Chairman Tom Davis. And there is no reason to believe that 
if you open this up, the market could respond with more?
    Mr. Hickok. Exactly.
    Chairman Tom Davis. But there are immediate vacancies of 
several thousand?
    Mr. Hickok. Yes, sir.
    Chairman Tom Davis. What's the average cost?
    Mr. Hickok. I can get you the average cost. We know that 
most are below $10,000. Far below $10,000.
    Chairman Tom Davis. One of the difficulties is you give 
$3,000 for a $10,000 school, I don't know if you have done any 
favors. I would like to get that. If we could get that between 
everybody and get a number we can agree to at least on that, we 
could come to maybe some kind of closure.
    One of the difficulties you have is you could put a ton of 
money, it seems to me, right now into the public school system 
and it's still not ready to fix it for next year or the year 
after. And vouchers are an immediate short-term solution--I 
don't think they are the long-term solution--to help. It gives 
kind of a competitive jolt to the public school system, as 
charters have. Charters are still in their infancy in the city 
as well.
    Public policy is very complex. If this were easy, if 
throwing money and compassion could solve this, we would have 
solved this a long time ago. But we have kids that we know are 
going to be starting school next September, and there are 234 
school systems that are failing, that are sometimes not as safe 
as they ought to be, and we are basically telling the parents 
you don't have a lot of other options, and we are trying to put 
other options on the table.
    I don't see anything wrong with that. But I think we want 
to be careful how we craft it, and we want to make sure that 
the options we are putting on are better options than they are 
having to choose from, or we are not doing ourselves any good.
    Mr. Hickok. Certainly the administration agrees with the 
Mayor's comment earlier and Mr. Chavous's comment that there is 
no single silver bullet. Vouchers, if you will, are not by 
themselves the answer. Public education is a complex thing and 
it requires a complex response.
    To get to your earlier question about the average cost for 
a nonpublic school in D.C., our data tells us it's about 
$7,500. If that is the average cost to attend a nonpublic 
school in the District and the District is currently spending 
close to $11,000 per student, it is a bargain. It is a bargain 
to be able to use school choice. Because most of your kids will 
get a good education for less money than you are spending now. 
If the average cost is $7,500 for nonpublic schools in the 
District, and the District is spending close to $11,000 now, to 
me, talk about smart investing, choice is a smart investment.
    Chairman Tom Davis. Well, let me ask this. And unlike a lot 
of other choices, as I understand it, they don't lose your base 
underlying dollars coming into the city, so the city loses 
$11,000 and you get a $7,000 education. So basically that's 
$11,000 you have to spend on another kid that's not there. 
That's a great deal.
    Mr. Hickok. Another thing we hear about in this business 
all the time is the importance of small class size. Since you 
have a capacity problem in your public schools, when you open 
the door to school choice, you will also have smaller classes 
in your existing public schools. In many ways this benefits 
students in the District.
    Chairman Tom Davis. Well, I think that's right. And I think 
these are the things that we need to discuss as we move forward 
and keep an open mind on, because I think we can craft 
something that works for the city over the short term, helps to 
rebuild the public school system over the long term, which is 
something that has to be done. School choice and vouchers are 
not a long-term solution. You don't want to put these, you 
know, put this in the hands of the private sector purely. We 
need a strong public school infrastructure. People are working 
at it. The fact that we could get lower pupil-teacher ratios 
for the public school system out of here to me is encouraging, 
because that makes it easier to correct, because we are dealing 
with some of the toughest demographic cases that you can 
imagine. And so it has some utility, in my judgment, in that 
way. And I will just tell you this chairman is not going to be 
ideological right or left. And I just have to take exception to 
what my ranking member said about how ideological this 
administration has been, etc. We worked through the initial 
education bills in a bipartisan manner, we are continuing to do 
that. And the idea that you would put this money into the 
public school system and expect that kid starting in September 
to get any kind of reasonable return on that or their parents 
is ludicrous, it's ridiculous. It's something that you can't 
argue with a straight face. And so from my perspective this 
offers some utility if it is constructed correctly, and we need 
all hands at the table to do that. I want to hear from--
certainly from Ms. Norton and Mrs. Cropp on this as well as the 
Mayor and Mr. Chavous and others.
    I have to go over, we have one series of votes going. Ms. 
Norton has about 5, 6 minutes left of questions. I'm going to 
take the unprecedented--this is very, very important to her--of 
handing her the gavel and she is going to finish her questions, 
at which point she will recess the meeting until we can return 
and go with the next panel. So we will take--after you leave, I 
would say we won't be back for probably a half an hour. So the 
next panel, you have a half an hour before we call you back.
    I want to take this opportunity, Mr. Mayor, to thank you. 
Again, I think on so many issues in the city you are taking 
leadership, you are exercising it, you're taking heat. You are 
concerned about these kids. This is not only courageous, it's 
historic.
    Councilman Chavous, let me say the same for you. And Linda, 
it's always good to have you here and your experience, your 
wisdom. Work with us on this. We can make this a winner for the 
kids. And if it works for the kids, it works for the city, 
helping become more of an economic force, bringing people back 
in. This has so many ramifications. If we get ideologically 
driven, we are missing an opportunity. The education has been 
the toughest part. Financially, we have ten the city back on. 
We have to watch it every year, but you are out from under the 
Control Board. We are about to give you budget autonomy. We may 
be able to bring a baseball team back here. A lot of things are 
looking good. This is the toughest nut to crack. The progress 
is slow at this point. This is just another opportunity. Maybe 
it doesn't solve the problem, I don't know that it does, but it 
will help a few thousand kids. It will give them an 
opportunity. And, as I said, who wouldn't want to choose 
between sending kids to college instead of to Lorton, which is 
what has happened to a generation of kids in this city.
    So let's work together and try to do something.
    And Ms. Norton, I appreciate your comments as well. I don't 
agree with all of them, as you don't with mine. But we've 
worked together on so many issues. You want to get some other 
issues on the record. I am going to hand you the gavel. Please 
don't abuse it. I'm going to be out of the room. I trust her. 
We are great friends and oftentimes allies. And on this one we 
still may come to closure on this one.
    Ms. Norton [presiding]. We will, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Ms. Norton. And I assure you that I believe in democracy, 
and I will not seize power while you are gone.
    Mr. Chavous perhaps can help me on this. I don't know how 
you stood sitting here and these people talking down the 
District schools the way they have. I guess I'll wait for Ms. 
Cafritz to defend the District public schools; I thought they 
were improving. But that frankly has never been where I was. 
I've always been, look, the child ought to go to some other 
school if you are dissatisfied with that school. That's why 
this long history of allowing children to go out of District 
long before the Federal Government ever thought of it has been 
so important, and now the charter schools and transformation 
schools.
    I'm real confused about this figure that Mr. Hickok throws 
around about $11,000, because I'm looking at some of your 
budget material. And maybe it just doesn't include everything, 
but your uniform per student funding was set at $6,418.51 per 
student. Is there something left out of that formula that could 
get it up to $11,000, the number that's been bandied about 
here? Or is that what you spend per student?
    Mr. Chavous. Well, Congresswoman Norton, I think that there 
is a certain baseline that we use with our per people funding 
formula that is over $6,000. But when you add in various State 
level costs, it could take it up depending on how many 
children, for instance, on a subsidized lunch program, what 
have you, or special needs. There are certain levels that can 
add to it, so it varies. I think different jurisdictions--and I 
know Ms. Cafritz has talked about this ad nauseam. Different 
jurisdictions take different things into account when they come 
up with that per pupil funding amount. And our calculations are 
complicated by the fact that we are not a State. So when you 
talk about the State level cost, and then that leads to 
disparity that, depending on which side you are on, you can use 
it for or against the school system in terms of how things are 
run.
    I will say finally though on your point, I don't want to be 
the prophet of doom and suggest that's why we are where we are. 
I think there has been tremendous strides under Dr. Paul Vance. 
I think his leadership has been critical. As one principal said 
to me--and I visit schools all the time--the best thing about 
Dr. Vance's leadership, unlike some of the previous 
superintendents that seem to come in like a revolving door, is 
stability. There is more stability with his presence. But even 
he would say, when you have the alarming reality of nearly half 
of our kids who enter the ninth grade still not graduating, and 
when you have parents like that parent who testified before my 
committee saying she feels she sacrificed one kid 6 years ago 
with the promise of help and reform in 3 to 5 years, and she's 
got another kid going into seventh grade this year, she doesn't 
want to wait 3 to 5 years. Then I do think there has to be an 
approach that is both short term and also long term. And that's 
how I feel about that.
    Ms. Norton. Mayor, perhaps--and perhaps you, Mr. Chavous, 
too, somebody mentioned the Washington Scholarship Fund. I've 
been a strong supporter of the Washington Scholarship Fund. And 
when they did not succeed in getting voucher funding before, 
they went ahead and did what they could still do. They in fact 
raised money to send our children. I've gone to their events, I 
have spoken at graduations where they have children in order to 
encourage them. Anything I can do to people who are willing to 
put their own money where their mouth is it seems to me we 
ought to encourage. But I do want to take issue with what the 
Mayor has in his testimony, because he must be talking about 
these children--he talked about a study of these children, a 
thousand of these children. These students gained almost 10 
national percentile points in math and reading after the first 
year, and an average of 6.3 NPR after 2 years of being in 
private school. Well, I wonder if you are aware that after the 
first year almost a third were gone, returned to the D.C. 
public schools, and by year 3 almost half were gone. So your 
statistics are based on the kids who were left who were 
obviously the best prepared kids, whereas almost half of them 
by the third year weren't even there anymore. And I don't know 
why they were gone, but they were gone. If I were you, I would 
be--if you want vouchers, fine. But I would be very leery of 
these studies. That's why I quoted from the study of the 14--of 
every study that's been done, and there is--there are none--and 
this is way out of line. And, you know, based on the children 
who are left in the schools--and remember, these children had 
to add to the scholarship in order to get to the school. Fair 
enough if you have limited money. I was on a program recently, 
a call-in. A lady said to me, I make $28,000 year. How in the 
world am I going to take advantage of that and have to come up 
with $1,000?
    Indeed, I want to ask both of you. If in fact you are for 
these vouchers for low-income parents, don't you also have to 
be for paying the full freight in order for them to go to these 
schools? I mean, do you really think a low-income parent in the 
District of Columbia can come up with $1,000 or more to add to 
this scholarship?
    Mr. Chavous. Well, if we are going to do this--that's why I 
like the three-sector approach--that we will add money for 
charter sales facilities, we will help for DCPS. And if you are 
going to do scholarship programs or vouchers, it has to be 
meaningful; it can't be partial. And so it can't be $2,000 or 
$3,000. It should be on par with what a good neighborhood 
private school would have to offer. And that's probably $5,000, 
$6,000, $7,000. So I agree with that caller. If we are going to 
do it, we need to do it all the way. And it can't be piecemeal, 
because we can't realistically expect low-income parents to be 
able to contribute.
    Ms. Norton. In fact, if you have a reason why somebody 
should wait for the scholarship, if--you know, if in fact it 
weren't confined to low-income parents.
    Mr. Chavous. But Ms. Norton, let me say one thing real 
quick. The reason why I haven't addressed so many of the 
details, the proposed details of a ``voucher program,'' I 
really want to make sure we have a commitment from the Federal 
Government to aid with charters and DCPS. I think, looking at 
facilities, as Ms. Cafritz has said, look at the State level 
cost for special education. I mean, that's where I believe the 
three-sector approach has its legs. We would lift all boats, in 
effect, and all children benefit. Because no matter what we do 
with choice in this city, the lion's share of our children, the 
vast majority of our children will still be in our traditional 
school system. And if we can translate real dollars at least to 
resources, at least modernization with facilities to help Dr. 
Vance in his reform efforts, then I think we can better say we 
have helped all kids. So I haven't really focused on the 
details of the voucher program, because my commitment is to 
make sure that we get additional resources for all sectors of 
our public education institution.
    Ms. Norton. I understand, Mr. Chavous, that you wanted a 
very large amount of money for this one. Again, I'm still--you 
know, the silence is deafening from the Federal Government on 
this.
    I do want to correct the record for the Mayor's benefit. 
Only one-third of the Washington scholarship kids were left in 
year 3. Two-thirds had returned to the D.C. public schools.
    Mayor Williams. I think there are a couple of things here. 
I think we need to have a--this is a pilot. That's an important 
thing in my mind. We are not talking about this for the next 
hundred years; we are talking about a pilot. We want to see how 
this works. And in order to see how it works, No. 1, I think we 
have to see that we are following what we are calling a three-
prong, three-sector, whatever it is, approach; in other words, 
for all three delivery systems. And we need to make sure most 
assuredly that for the kids who are going to the private/
parochial schools they have enough funding to attend those 
schools, whether it's $5,000, $6,000, $7,000.
    No. 2, where it relates to the study here, the school 
vouchers and academic performance, I would say the first 
thought I would have is every study is always going to have to 
account for the fact that you are going to have some changes in 
the study group.
    Ms. Norton. This is because most of the kids are gone.
    Mayor Williams. If I could say, and I think for me the 
question is, what would--even if you want to assume that two-
thirds of the kids are left, what would the outcome have been 
for those kids who perform well in those scholarships? Where 
would the outcome have been if they stayed in the regular 
public schools? I would submit it would not have been as well, 
not have been as good.
    Ms. Norton. Well, but you submit that on the basis of what 
evidence? The fact is that the 14 studies that I referred to--
--
    Mayor Williams. I'm submitting that on the basis of 
evidence I've seen around the country. And that brings up my 
point.
    Ms. Norton. How about evidence of studies?
    Mayor Williams. That's why it is so important and I think a 
critical component of this pilot, is that we are going to be 
able to for the first time longitudinally compare outcomes for 
students in the three different branches. And we haven't had 
that before. And we ought to take the opportunity to use it.
    Ms. Norton. Mr. Mayor, I can understand, and that I can't 
quarrel with that issue of you. All I was trying to do was to 
get on the record that you were studying what amounts to the 
cream that's still left. Those are not studies that are 
credible.
    I only have a couple of more questions. One, I want to just 
put in the record, in light of your testimony, Mr. Mayor, that 
these low income--one, they should be low income students, and 
they should attend schools in their neighborhoods. I'm 
quoting--paraphrasing with--those are the operative words in 
your testimony. I'm not sure you are aware that of the private 
and parochial schools 15 are located in Northwest, 3 in 
Northeast, 1 in Southeast, and zero in Southwest. So these kids 
are not going to be going to schools in their neighborhoods.
    My final question is about the transformation schools. I 
understand, I'm very impressed frankly with these first results 
from the transformation schools, the early results. We know 
those children aren't going anywhere. We know they haven't gone 
back to any other school system. I'm just very impressed with 
the concept. And I understand that there are parents who want 
transformation schools as well.
    So I've got two questions. One, are you going to be able to 
continue to fund these transition schools with the extras that 
have brought these results? And two, when are you going to 
expand the transformation schools?
    Mr. Chavous. Well, I would say that, from what I understand 
with Dr. Vance--and he testified to this at our committee 
budget hearing--that the plan is that they will bring on more 
transformation schools. I think that in addition to funding and 
other financial resources that are needed, they also need 
bodies. They need to have different teachers and this big 
recruitment drive for more teachers. Because the beauty of the 
transformation process is that they almost take a SWAT team 
approach, where they bring all these resources, including wrap-
around services and the like, and aid the schools' immediate 
needs. So my commitment is to fund that. But I also think that 
it is something that they just can't do in mass because they 
have to bring those different resources together.
    Ms. Norton. But money is the problem today?
    Mr. Chavous. Money is part of it, as I understand it. But 
also there's a problem in terms of getting the right personnel 
to put in these schools as well. That's why, as I understand, 
they're working with Teachers for America and they're bringing 
new teachers on-line.
    Ms. Norton. Are there any plans to expand the number of 15 
beyond that at this point?
    Mr. Chavous. I think Ms. Cafritz can speak to that. My 
understanding is that there is; I don't know when. But I would 
support that.
    Ms. Norton. Did you have something you would like to say on 
that, Mr. Mayor?
    I know I speak for the chairman when I thank all of you for 
having remained so long and having clarified many issues. And 
let me just say for the record, I look forward to working with 
all of you, and hope that we can begin that working together in 
that consultation that the chairman talked about very soon.
    Mr. Chavous. Thank you, Congresswoman Norton.
    Ms. Norton. Thank you.
    [Recess.]
    Chairman Tom Davis. We are ready to start and we will get 
the other witnesses as they come in. It is the policy of the 
committee that we swear you in before you testify, and if you 
will just rise with me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. We have the lights in the front. When 
the yellow light goes on, you have a minute to sum up. We 
appreciate you summing up as quickly as possible.
    [Witness sworn.]
    Chairman Tom Davis. Go ahead and try to keep it to 5 
minutes and then your whole statement is in the record so you 
are not getting short-changed. Everything is in the public 
record for historical archives, Ph.D. candidates, anyone else 
who wants to look at this in the annals of history, the total 
statement is there. We got most of our questions formulated 
based on that. So the briefer you are, the faster we can get to 
the questions. And I appreciate each and every one of you 
waiting through this. I hope it was worthwhile to see the 
Eleanor and Tony Show. I am a minor player in this, but we are 
trying to get at some basic facts as we formulate policy.
    Ms. Cafritz, we will start with you.

    STATEMENTS OF PEGGY COOPER CAFRITZ, PRESIDENT, BOARD OF 
  EDUCATION; JOSEPHINE BAKER, EXECUTIVE DIRECTOR, DISTRICT OF 
 COLUMBIA PUBLIC CHARTER SCHOOL BOARD; CASEY J. LARTIGUE, JR., 
 EDUCATION POLICY ANALYST, THE CATO INSTITUTE; HELEN F. LADD, 
 RESEARCHER, DUKE UNIVERSITY; JACKIE PINCKNEY-HACKETT, PUBLIC 
 SCHOOL PARENT, JEFFERSON JUNIOR HIGH SCHOOL; AND IRIS TOYER, 
    TRANSFORMATION SCHOOL PARENT, STANTON ELEMENTARY SCHOOL

    Ms. Cafritz. I was not given a 5-minute time line before so 
I will try as best I can to highlight. Chairman Davis and 
Congresswoman Norton, I am Peggy Cooper Cafritz, president of 
the Board of Education, and it is a pleasure to appear before 
you this afternoon on the issue of vouchers. The views 
contained in my testimony are my own and do not represent the 
views of the D.C. Board of Education.
    On July 17, 2002, the Board adopted a resolution opposing 
in response to Dick Armey's bill congressional imposition of 
vouchers on the District of Columbia. Some of my colleagues 
continue to oppose a federally imposed voucher program and are 
waiting first to be convinced that Congress will increase its 
commitment to public schools. The Board of Education will 
revisit this issue later this month.
    We all want home rule, but the education of our children 
cannot wait for that Constitutional achievement. I do consider 
my presence here an expression of home rule. I was elected by 
over 100,000 votes. I cannot abdicate my responsibility to our 
children and tell Congress in its beneficence to bestow home 
rule on D.C.
    We need your massive support, all of which need not be 
financial, to fix all of our schools now. There is agreement 
and unanimity on the goal of equitably educating every child in 
our city. Another belief that we share is that the District of 
Columbia public schools need greater resources to overcome the 
legacy of this investment. The chairman of the City Council 
mentioned that funding for DCPS had increased considerably. 
Since 1996, that's true, but the level was so low then as to 
put us on a list of underdeveloped countries. For those--for 
the same reasons that it costs comparatively more to run the 
District government, so it stand to reason that it would cost 
more to run the D.C. public schools. Even before you deduct for 
State costs we must bear, we spend considerably less than our 
contiguous jurisdictions like Arlington, VA.
    Ever since my colleagues and I assumed office, we have been 
engaged in reforming a broken school system that has never 
received sufficient resources necessary for sustaining reform. 
We found an educational system with deteriorating school 
buildings, underachieving schools with too many students who 
lacked the academic skills to prepare them for the future and 
poor personnel and budgetary systems. We found a system that 
had been built on a legacy of too many broken promises and 
failed experiments and too few resources to overcome the many 
years of neglect.
    Simply put, Congressmen, we have had to keep the trains 
running in this broken system every day, while on a parallel 
track we are hard and fast at work at building a real school 
system, the kind that has not existed in D.C. since 
desegregation. With the help of many committed teachers, 
principals, parents and leaders in the community, we are 
beginning to address this legacy of disinvestment. We are 
beginning to experience a modicum of success and we are laying 
the foundation for sustainable reform.
    We have embraced reform and all that encompasses. We have 
embraced competition with the hope that every child realizes 
its full potential. The Board oversees a successful charter 
school program that serves 16 charter schools with 2,880 
students. We are tackling the bureaucratic inertia that can 
impede reform. We have developed with counsel from the McKinsey 
Co. and are implementing a business plan for strategic reform 
that serves as our road map. Because of these efforts, many of 
the deficiencies cited in the legislative narrative in H.R. 684 
and in other Cato Institute documents are untrue.
    Our students are improving academically. We have raised 
test scores in approximately 60 percent of DCPS schools and 
increased reading performance at nearly every grade level. We 
are transforming the 15 schools that have been talked about so 
much today. We are developing innovative programs in our 
schools and we have attracted a team of administrators that I 
would put up against any in the Nation. We are implementing all 
new systems. We have prepared a performance based budget that 
would have linked expenditures to programs and assisted 
decisionmakers in helping our parents assess our academic and 
management performance until most of those items were cut by 
this last round at the City Council.
    We are in danger of regressing and halting our reform 
efforts. We do not fear choice, but we do fear the lack of 
financial investment in our efforts to reform the public school 
system. If one goal of choice is competition, it is dishonest 
to not give DCPS the tools it needs to compete. Our budget is 
being cut continually and we are now forced to cut programs in 
our classrooms. We will not be able to add any more 
transformation schools and we will not be able to continue the 
level of support that we have at our current transformation 
schools. We may not even be able to fund the new teachers' 
raises. The City Council did set it aside as an enhancement, 
but our first responsibility is to the students in the 
classrooms.
    The Board requested a 6-year capital budget of $2 billion 
to implement a modernization program. The Board and the Council 
have recommended only $511 million over 4 years. Now I would 
like to address that for a minute.
    Charter schools, Catholic schools and public schools need 
facilities and facilities is money. The city has excess schools 
in their inventory which could be given to charter schools, and 
I would be willing to take any of you Congress people on a tour 
of charter schools and public schools in the District so that 
you can actually see what the situation is and work with us, 
but it is really this area in which we need Congress to get 
involved. It is very easy to say we should collocate with 
charters. In collocating with charters we have to make sure we 
can equally fix up the buildings. You can't have two children 
going to school, one in a messed up building and one in a fine 
building. That is not going to work.
    The city's recommended operating and capital budget does 
not in any way meet our needs. They will not fund legally 
required asbestos abatement, structural maintenance 
improvement, startup funds for instructional equipment to bring 
our art and music programs up to minimal national standards or 
to serve the children we need to serve in summer school or to 
foster innovative teacher and teacher induction programs.
    The level of poverty of our students is over 50 percent, 
and this is important for everyone to hear. The level of 
student poverty in Catholic schools is just about the same. The 
level of poverty in charter schools is a little more. We are 
dealing with a population, as you mentioned before, Congressman 
Davis, that is very, very difficult. To give our children 
vouchers, to allow our children to go to charter schools, to 
keep them in public schools, whatever it is that we may try, 
and I think we should try everything, is not helpful unless we 
are also able to provide the social safety net that our 
children need. No matter how good a teacher is, a hungry child 
and a cold child and an emotionally traumatized child cannot 
learn. And it will be to our peril to start new programs and to 
continue with old programs without addressing these very 
serious issues.
    I have met with Cardinal McCarrick and I have talked to our 
charter people and we all agree it is something that is very 
important. I believe that a voucher program can be a viable 
alternative of, one, to low performing schools. I believe there 
is much room under the tent for any ideas or approaches that 
help our students.
    It is proposed under H.R. 684 that a private nonprofit 
corporation known as the District of Columbia Scholarship Corp. 
will administer a voucher program and will determine student 
and school eligibility for participation for the program. The 
corporation, according to Congressman Flake, would have a board 
of directors, comprised of seven members, six appointed by the 
President and one appointed by the Mayor. That does not make a 
home grown voucher program. And I would, in turn, recommend 
that as you craft new legislation that you have the President--
because we consider the Federal Government worthy neighbors, 
that you have the President appoint two, the House and Senate 
appoint two, the Mayor appoint two, the Council one and the 
elected state education agency, the Board of Education, appoint 
three. We also believe among that number must be representation 
from the Washington Scholarship Fund, which is a philanthropic 
scholarship fund that was started by a real estate tycoon Teddy 
Forsman and John Walton, who needs no identification, and the 
Black Student Fund, which is 30--over 30 years old, which was 
started by some of Washington's most august citizens and has 
sent hundreds of poor children to our finest private schools, 
and the Latin Fund, which is sending a number of our Latino 
children to parochial and some private schools. Because these 
people have experience in administering voucher type programs, 
it is very important that they be brought under the tent and 
the leadership and governance of any new program we should set 
up.
    We don't need to reinvent the wheel. The legislation does 
include eligibility requirements for students and private 
school participants and parochial school participants. I 
believe that eligibility requirements should ensure that the 
schools that participate in the voucher program should be open 
and accessible to all students, students with disabilities, 
English language learners, etc. I agree with the income limits 
that have been placed in H.R. 684 because they are closely tied 
to the requirements to participate in the free lunch program. 
However, in all probability, there will not be enough vouchers 
to satisfy the demand. And based on that, these limited 
resources should, therefore by a weighted lottery, be directed 
to those with the greatest need.
    I further believe that if the program is then to be 
successful, it must provide administrative support to help 
parents negotiate the admissions process in the parochial and 
private schools. That can be a daunting experience for any 
parent and the barriers should be removed. Catholic schools--
parochial schools in our city accept children basically on a 
first come first served basis. That is not true of other 
private schools, but it is true of Catholic schools.
    I also believe that it's very important that this be 
limited to students and schools in the District of Columbia and 
that any participating schools have been in existence for 5 
years so that we can avoid a problem that we have had with 
charters where there were very few standards and we had some 
fly by night schools.
    I just have one last thing to say. We owe every child a 
good education, and we must have a way of communicating the 
right information to parents. 54 percent, 54 percent of our 
charter schools are placed in the failing school category based 
on the No Child Left Behind Act. We are required to notify 
those parents that those children in those failing charter 
schools can select another school that is not failing come next 
September. Public schools, even our best schools, Banneker, 
have children that are reading below level. Catholic schools 
have the same problem that we have. We need to give the cost 
per head that we give to every child in the public schools and 
charter schools to children receiving vouchers, because they, 
too, are going to need those networks of support to matriculate 
successfully regardless of the school system they are in.
    [The prepared statement of Ms. Cafritz follows:]

    [GRAPHIC] [TIFF OMITTED] T8196.041
    
    [GRAPHIC] [TIFF OMITTED] T8196.042
    
    [GRAPHIC] [TIFF OMITTED] T8196.043
    
    [GRAPHIC] [TIFF OMITTED] T8196.044
    
    [GRAPHIC] [TIFF OMITTED] T8196.045
    
    [GRAPHIC] [TIFF OMITTED] T8196.046
    
    [GRAPHIC] [TIFF OMITTED] T8196.047
    
    [GRAPHIC] [TIFF OMITTED] T8196.048
    
    [GRAPHIC] [TIFF OMITTED] T8196.049
    
    [GRAPHIC] [TIFF OMITTED] T8196.050
    
    [GRAPHIC] [TIFF OMITTED] T8196.051
    
    Chairman Tom Davis. Thank you very much. Ms. Baker.
    Ms. Baker. Good afternoon, Chairman Davis and members of 
the committee. I am Josephine Baker, executive director of the 
D.C. Public Charter School Board. I thank you for this 
opportunity to share the Board's perspective on charter schools 
and the important contributions they are making to public 
education in the District of Columbia.
    My involvement and support of public education in D.C. has 
been lifelong. I am a product of the D.C. public school system 
as are my three children. Having contributed 25 years of 
service as a DCPS elementary school teacher, I feel I have 
firsthand knowledge of the importance and value of public 
education, particularly in this city.
    The District of Columbia public schools are now presenting 
evidence that long sought solutions are working, the 
reconstituted and transformation schools are showing great 
promise. Student achievement is improving, faculty morale is at 
a new high and parents and community members are encouraged to 
see the tremendous resources and energy that has been infused 
in the schools that were in the greatest need of 
transformation. While there is still more work to be done, the 
evidence suggests that continued support will move 
transformation schools and the public school system up to new 
heights.
    Over the past 6 years, charter schools have been a 
significant catalyst for change in our city. They independently 
operate public schools that are open to all District residents 
regardless of their neighborhood, ability, socioeconomic status 
or academic achievement. There is no exclusivity, no 
discriminatory admission test or other requirements. There are 
no tuition fees. Parents and students choose to attend a 
particular charter school because its unique focus, curriculum, 
structure, size and other features meet the needs of those 
families. Charter schools are often created through the 
collaboration of innovative teachers, parents and community 
nonprofits. They attract energetic, creative teachers and 
administrators who are passionate about education and who want 
to offer an alternative to traditional school formats.
    As we move into a new kind of economy, charter schools 
represent the progressive approach to education; that is, 
preparing the next generation to succeed in an information 
based society. In exchange for a greater degree of autonomy, 
charter schools must accept greater accountability. Each school 
must establish a board-approved accountability plan as a part 
of its charter, which is then used to monitor and measure 
progress.
    The D.C. charter law gives charter schools 5 years to 
demonstrate progress toward their accountability plan or risk 
charter revocation. The Public Charter School Board will 
continue this approach incorporating our NCLB and its 
guidelines.
    There are 42 charter schools serving more than 12,000 
students in the city. That amounts to one in every seven 
students in D.C. public schools. The majority of student 
populations in the charter schools are from low income 
families.
    Despite the obstacles of inadequate facilities and funding, 
community demand continues to grow because of the innovative 
offerings and the remarkable progress we have seen in student 
and school achievement. I will share with you a few of the many 
examples of success stories.
    Cesar Chavez Public Charter High School for Public Policy 
graduated its first class in 2002. 100 percent of its graduates 
were accepted to college, receiving over $1 million in college 
scholarships.
    Maya Angelou Public Charter School targets adjudicated and 
drop-out youth and places great emphasis on building their 
skills to succeed in college. While they haven't shown 
particularly impressive SAT-9 scores, students have made 
significant improvements in SAT scores. This has resulted in a 
very high percentage of their students graduating and attending 
college on scholarship. Also, an interesting statistic is that 
so far 70 percent of those students have remained in college.
    The Arts and Technology Academy is an elementary public 
school that inspires their students to excel in academic 
subjects using arts and technology. Attendance is consistently 
very high and SAT-9 math and reading scores have improved each 
year, most significantly in its third year; 98 percent of the 
students are low income.
    SEED is the only public boarding school in the Nation. It 
provides a nurturing environment for students in grades 7 
through 12 and prepares them for college and future careers. 
SEED seeks out students whose home and neighborhood 
environments have proven to be barriers to their academic 
achievement.
    Of the 21 charter schools, 19 have an average of attendance 
of approximately 90 percent or higher. They have earned many 
honors from organizations such as the National Academy of Math 
and Science, the Washington Post Educational Foundation and one 
particular of interest is that they have competed and been 
successful in the D.C. Scholastic Chess Competition. On SAT-9 
tests there is a positive gain in both reading and math across 
all grades because statistically we look at how students go 
from 1 year to the next and we measure that gain. The 
elementary schools showed the most impressive gains from the 
previous year. We have adduced that the earlier and longer 
children have been in charter schools, the greater the gains 
have been on the SAT-9. High school students have the least 
gain, and this is one of the real challenges that our schools 
face.
    There are many individual stories about students and 
schools succeeding against tremendous odds that I haven't 
shared with you today. Charter school leaders and parents are 
pushing through and working around tremendous barriers. They 
are finding creative solutions in order to meet increasing 
community demand. Many have been forced to spend a large 
proportion of their funding on expensive building leases in an 
extremely competitive real estate market. Others are enabled to 
add grades if they cannot find affordable additional space. 
Often money to fully invest in creative programs to offer 
competitive salaries and benefits to teachers and to provide 
other needed services is compromised to pay the expensive 
rental rates. Some schools have been successful in finding 
private donations, but even that has waned with the recent 
economic downturn.
    It is exciting to imagine the impact the charter schools 
would make if not constrained by limited funding. Schools could 
purchase appropriate facilities and add or update technology 
and science labs and the like. Their innovative curricula could 
be fully implemented with continuous staff and faculty 
development. Additional services needed by students and their 
families could be provided and more schools might be opened. 
Thousands more students might be enrolled. It is our contention 
that any additional Federal funding that is available to 
provide alternatives to public school students would be well 
spent on charters and transformation schools.
    Local leaders have invested in and supported these 
alternatives in recent years and we are beginning to see 
positive returns. Now is the time to leverage that investment 
to benefit a large number of additional students rather than 
divert desperately needed funding toward unproved experiments.
    Federal legislation is not needed to address the 
educational concerns of this city. What is needed is Federal 
support of local publicly accountable alternatives that are 
already working. We appreciate the opportunity to share our 
perspective and invite your questions.
    [The prepared statement of Ms. Baker follows:]

    [GRAPHIC] [TIFF OMITTED] T8196.052
    
    [GRAPHIC] [TIFF OMITTED] T8196.053
    
    [GRAPHIC] [TIFF OMITTED] T8196.054
    
    Chairman Tom Davis. Thank you very much. Casey.
    Mr. Lartigue. Good afternoon, Chairman Davis and Ms. 
Norton. My name is Casey Lartigue. I'm an Education Policy 
Analyst at the Cato Institute in Washington, DC. It is 
unfortunate that we must have this hearing on increasing 
educational choices for D.C. parents. The discussion should be 
not over whether there should be more--not over another 
educational choice but rather on how to bring as many 
educational choices as possible to parents.
    Most of us are familiar with the recent stories about 
textbooks being delivered late to D.C. public school students, 
about nonemployees being on the payroll, numerous errors in 
study guides and low test scores, but I ask is this failure 
new?
    Next year will mark the 200 anniversary of the founding of 
public education in the Nation's Capital. I am not sure we want 
to hold a party. A comprehensive report released shortly after 
the founding read, ``In these schools poor children shall be 
taught reading, writing, grammar, arithmetic and such branches 
of the mathematics as may qualify for the professions they are 
intending to follow.'' Had the District been successful in 
fulfilling its mission to educate local residents, with 37 
percent reading at the third grade level or below and with SAT 
scores more than 200 points below the national average, I would 
say the answer is no.
    During previous congressional hearings, a U.S. Senator 
concluded, ``A crisis has been reached in the school system of 
Washington. The education of more than 60,000 children is 
involved.'' Now that would accurately describe the situation 
today, but those words were spoken by Senator Pat Harrison in 
the select committee report in 1920.
    Seventy-six years later the Financial Control Board 
concluded that the leadership of D.C.'s public school system 
was, ``dysfunctional,'' and famously pointed out that, ``for 
each additional year that students stay in DCPS the less likely 
they are to succeed, not because they are unable to succeed but 
because the system does not prepare them to succeed.''
    We've had many warnings between those two statements that 
the system has been, to quote the Washington Post, ``a well-
funded failure.''
    In 1947, the superintendent of schools declared D.C. had, 
``one of the sorriest school systems in the country.''
    The 980-page Strayer report published in 1949 found that 
D.C. students were achieving below the national average in all 
academic areas.
    An analysis of standardized test scores in the 1950's 
revealed that one-third of the students in the District were 
white, public school students in the District were trailing the 
national average on all subjects tested.
    In 1967 a comprehensive 15-month study of public schools in 
D.C. found, ``a low level of scholastic achievement as measured 
by performance on standardized tests.'' A few months earlier in 
an editorial with the headline, The Silent Disaster, the 
Washington Post started off, ``The collapse of public education 
in Washington is now evident.'' That was in 1967.
    Now, the point of all that is that the failure of DCPS is 
not new. We wouldn't be rocking a smoothly sailing boat by 
trying something different. As Ms. Cafritz said earlier, change 
only comes through pressure. Now I don't doubt that the 
leaders, including Ms. Cafritz, are trying to make efforts and 
that they really are putting a lot of effort into it, but as 
she has said, children can't wait for change and that is why 
she now supports having vouchers as an alternative.
    The opponents of choice express many concerns, and I would 
like to address three of them. First one is that D.C. already 
has choice. This is said to be an objection to vouchers, but I 
welcome it as good news. That means the argument over choice 
has been fought and won. We are no longer debating whether 
choice is good. I would like to remind you all that charters 
were not popular when the District of Columbia's Reform Act of 
1995 passed. They were untried. They were an experiment. The 
first charter school law had passed only 4 years earlier and 
only 12 States had them by the time D.C. decided to try them. 
Charters were opposed by the D.C. Board of Education, they were 
opposed by the local teachers union. One Council member was 
quoted as saying, ``We don't need nobody to come in here and 
run our schools.'' The President of the Board of Education at 
that time said that charters, ``are taking away from the basic 
premise of education to allow public funds to go to private 
schools.''
    We now see that charters have been a positive addition to 
the D.C. education system and that many of the criticisms at 
that time are being made about vouchers.
    A second complaint is that there is not enough space. Now 
the same thing was said of charters in 1995 and 8 years later 
we know that the critics are wrong. There are more than 40 
charter schools with clearly more than 10,000 students being 
educated in them. And it is possible that a decade from now 
there could be more diversity with charter schools, public 
schools, private schools accepting vouchers, home schools, 
virtual schools. You could have 30 percent of the kids in 
charter schools and I could add maybe 20 percent in private 
schools.
    Last point, D.C. residents have already voted against 
vouchers or D.C. residents are opposed to vouchers. Now as 
Representative Flake pointed out, D.C. residents voted against 
tuition tax credits in 1981, but we know that a lot has 
changed, including with the introduction of charters. The 
students in the schools today were not even alive when that 
vote was taken. I believe that parents would embrace vouchers 
much as they have embraced charter schools today if given the 
chance. Historical records suggest that the public school 
system cannot reform itself. It is time to put power in the 
hands of parents by greatly increasing the range of choices. If 
they don't want the voucher, they can tear it up when it comes 
in the mail to them.
    [The prepared statement of Mr. Lartigue follows:]

    [GRAPHIC] [TIFF OMITTED] T8196.055
    
    [GRAPHIC] [TIFF OMITTED] T8196.056
    
    [GRAPHIC] [TIFF OMITTED] T8196.057
    
    Chairman Tom Davis. Thank you very much. Dr. Ladd.
    Ms. Ladd. Thank you. I'm delighted to have the opportunity 
to talk with you, Chairman Davis and Congresswoman Norton. I 
would like to make four points in my remarks today.
    First, providing low income families more choice over where 
their children go to school is generally desirable. Students 
have different educational needs and one size school clearly 
does not fit all students. But choice for families is not the 
only or even the most important value in designing an education 
system. Choice needs to be balanced against other goals, such 
as improving overall student achievement and maintaining equity 
throughout the system.
    My research in the United States and elsewhere leads me to 
conclude that these other values are best preserved when school 
choice for parents is limited to the public school system, 
including charter schools. Given the use of public funds, the 
public needs to be assured that the schools are publicly 
accountable, and that is not the case with private schools.
    School, the counter argument by voucher supporters that 
private schools are better than public schools and that 
therefore it would be unfair to deny low income families access 
to such schools is not consistent with the evidence. The best 
studies on this question are those headed by Professor Paul 
Peterson from Harvard University and are based on privately 
funded voucher programs in New York City, Washington, DC, and 
Dayton, OH. These are terrific studies, because they are based 
on an experimental research design, the kind that we commonly 
use in medical research and that is now being pushed hard by 
the U.S. Department of Education. The key aspect of the 
research design is that families who apply for vouchers are 
randomly assigned either to get a voucher or not to get a 
voucher and to remain in the traditional public schools. The 
main results from these studies by Paul Peterson and his 
colleagues are clear and unambiguous. Students who use vouchers 
to switch to private schools achieve at no higher levels on 
average than those who remain in the traditional public 
schools. So much for the view that the autonomy of private 
schools automatically makes them superior to public schools.
    It is true that Peterson and his colleagues do report 
positive gains for African American students, so that's the 
subgroup of vouchers students who are African American. There 
are no positive findings for other subgroups such as Hispanics 
and Whites. But the positive results that they report have been 
subject to additional scrutiny and are suspect in their own 
right in that they are inconsistent across cities and across 
grades within cities. The new study that's important here is 
the study by Professor Alan Krueger from Princeton University, 
who has taken the New York data where the results for African 
Americans appear to be strongest and has reanalyzed that data 
and found that with the larger sample that he uses in his study 
that the positive effects on achievement for African American 
students disappear.
    The fact that there are no significant gains on average for 
students who use the vouchers to go to private schools doesn't 
surprise me one bit and it shouldn't surprise you. Some private 
schools are very good. The best ones tend to be the very 
expensive schools that low income students who have vouchers 
are not likely to have much access to. But even among the ones 
to which the students have access to, some are likely to be 
good and some are likely to be quite poor or certainly below 
average. So what the results are saying is that the typical low 
income student bearing a voucher is likely to attend a private 
school that is no better than the public school.
    Third point. There is no compelling evidence that a large 
scale voucher program would improve the public schools by 
forcing them to compete more aggressively with private schools. 
There are multiple studies and these are the studies that 
Congresswoman Norton was referring to earlier of the U.S. 
experience with private schools, which indicate at most a very 
small positive impact of private school competition on the 
academic achievement of students in the public schools. And in 
addition, though some researchers, particularly from the 
Manhattan Institute, have claimed large positive competitive 
effects from programs such as the Florida voucher program, 
their interpretation of the results has been shown by me and 
various other researchers to be highly flawed.
    The best evidence of the effects of competition on public 
schools comes from outside the United States. It comes from 
Chile, which has had more than 20 years of experience with 
vouchers. The evidence from that country shows no clear 
positive effect of private schools on the country's traditional 
public schools.
    Finally, and this point was made earlier by Congresswoman 
Norton, if competition among schools is desirable, it is not at 
all clear why such competition would have to come from private 
schools rather than from within the public school system in the 
form of choice among public schools and access to charter 
schools.
    Fourth and finally, any federally funded voucher program 
that is implemented in the District or in any other U.S. city 
must be fully and carefully evaluated. The evaluation called 
for in the current version of H.R. 684 is to be applauded but 
falls far short, in my view, of the standards of evaluation 
that would be necessary and that are currently being promoted 
by the U.S. Department of Education for other policy 
interventions. Such policy evaluations need to be based on 
random assignment.
    Given the significant educational challenges currently 
faced by Washington, DC, and also my own evidence-based 
skepticism about the benefits of voucher programs, I urge the 
committee not to impose a voucher program on the District of 
Columbia at this time. Washington should not have to serve as 
the guinea pig for a program whose benefits are so unclear. If 
the Federal Government is committed to experimenting with 
voucher programs, I urge it to do so in another city, one in 
which residents are more amenable to vouchers, and to delay 
recommending implementing such a program for Washington until 
the benefits of such a program are shown to be more positive 
than the evidence from the United States and other countries 
currently shows to be the case.
    Thank you very much.
    [The prepared statement of Ms. Ladd follows:]

    [GRAPHIC] [TIFF OMITTED] T8196.058
    
    [GRAPHIC] [TIFF OMITTED] T8196.059
    
    [GRAPHIC] [TIFF OMITTED] T8196.060
    
    [GRAPHIC] [TIFF OMITTED] T8196.061
    
    Chairman Tom Davis. Thank you very much. Ms. Hackett, thank 
you for being with us.
    Ms. Pinckney-Hackett. Good afternoon, Chairman Davis and 
Congresswoman Norton. My name is Jackie Pinckney-Hackett, and I 
am a parent of two sons who attend D.C. public schools, 
Jefferson Junior High School and School Without Walls, and I am 
also a PTA president. Thank you for this opportunity to provide 
testimony on school choice.
    I would like to begin by sharing a brief article I wrote on 
the liberal out-of-boundary process in the District. It is 
titled, ``A Day to Remember.''
    Wednesday, March 19, 2003 will be a day to remember for all 
Americans. It is the day we began war to disarm Iraq, Operation 
Iraqi Freedom. And for many district parents, it was the day 
that the lottery was held by DCPS for out-of-boundary 
replacements, Operation School Choice. Both operations contain 
a shock and awe component. For Iraq the shock and awe was 
delayed a day or two. However, for the parents of the District 
it had an immediate impact. You see, the D.C. public school 
system reported receiving more than 6,000 applications for out-
of-boundary replacements and having about 5,254 slots available 
across the city.
    That's phase one of the shock and awe campaign which leads 
parents to believe they have school choice. The military refers 
to this as psychological warfare.
    Phase two: Lottery results. They drop the bomb and your 
school choice is decapitated. Shocked. Awed.
    Take a look at the middle and junior high school chart 
below. The schools with available seats, such as Kramer, Sousa, 
Eliot and Shaw, are not necessarily the schools of choice. 
Together those schools have 445 available seats, received 81 
applications and accepted 80 applications. And the schools that 
are believed to be the premier cream of the crop, schools such 
as Hardy, Stuart-Hobson, Deal, Hine, Francis and Jefferson, had 
a total of 270 available seats, received a total of 2,224 
applications and only accepted 239 applications.
    And it gets worse at the high school level. In fact the 
premier schools, Banneker, School Without Walls, Ellington and 
M.M. Washington, are exempt from the out-of-boundary process. 
Many of those schools have an entrance exam and only accept the 
best. And most of the schools with available seats, Anacostia, 
Ballou, Coolidge, Eastern and Woodson, just happen to be 
identified as low performing schools under the No Child Left 
Behind Act. Spingarn had 24 seats available and accepted all 9 
applications. Dunbar had 140 seats available, received 191 
applications and accepted 96 applicants. I guess you are 
wondering why they did not accept 140 applications. Well, there 
were a limited number of seats for certain grade levels.
    Well, I guess parents can apply for public charter schools 
or at least add their names to the waiting list. Wouldn't it be 
nice to offer parents another option, perhaps a voucher, a 
certificate or scholarship to allow parents to place their 
children in a school that provides a quality education.
    I support public schools, public charter schools and 
private schools. Most importantly, I support children receiving 
the quality education. Either you have school choice or you 
don't. District parents do not have a choice. A lottery is not 
a choice. It is a fat chance. It appears that Operation School 
Choice was not a success and decapitated thousands of 
educations. Mission failed.
    I hope and pray that Operation Iraqi Freedom has better 
luck and fewer casualties. We know they have better funding.
    There are over 6,000 parents in the District who want and 
need school choice programs. The condition of the D.C. public 
schools is no secret. Our children should not be left to suffer 
while we wait to improve academic performance in D.C. public 
schools. This school choice program must be a true and equal 
choice opportunity not to mention fully funded. Each choice 
should offer the student an excellent academic opportunity. 
Therefore, it may be necessary to enhance all school choices at 
the same performance level. It may also mean providing 
scholarships in the amount of $10,000 per student. To just give 
money for scholarships is not enough. Keep in mind there are 
not a sufficient number of slots in private schools to 
accommodate 6,000-plus students. Money is also needed to 
improve public and public charter schools.
    In closing, I encourage Federal legislation to address 
educational issues in the District with a school choice program 
that the Nation can be proud of.
    Thank you.
    [The prepared statement of Ms. Pinckney-Hackett follows:]

    [GRAPHIC] [TIFF OMITTED] T8196.062
    
    [GRAPHIC] [TIFF OMITTED] T8196.063
    
    [GRAPHIC] [TIFF OMITTED] T8196.064
    
    [GRAPHIC] [TIFF OMITTED] T8196.065
    
    [GRAPHIC] [TIFF OMITTED] T8196.066
    
    [GRAPHIC] [TIFF OMITTED] T8196.067
    
    Chairman Tom Davis. Thank you very much. Ms. Toyer, thank 
you for being here.
    Ms. Toyer. Good afternoon, Chairman Davis and to my 
Representative Congresswoman Norton. I am Iris Toyer, and I am 
going to try to summarize as much as I can since you have my 
statement.
    I am a graduate of D.C. public schools, as are my three 
adult children. Currently I have a child in fifth grade at 
Stanton Elementary School. That is a transformation school. I 
am the PTA president at Stanton and I must say that my position 
on vouchers reflects that of the national PTA as well as D.C. 
PTA.
    I say these things. I also am co-chair of Parents United. I 
just lay that out there because I want you to know that I come 
to this discussion as an informed parent, and not based on my 
own child's narrow experience.
    The debate over vouchers has caused me to look at my 
school, which is a Title I school with over 636 children, 90 
percent of whom are title eligible for free and reduced lunch. 
The impact of H.R. 684 I guess--under that they would be 
eligible for it.
    What could possibly be wrong with giving at least a few 
children an opportunity to escape a public school system that 
often fails to educate students adequately? While perhaps well-
meaning, I think the proposal is misguided.
    First, there are options in the District of Columbia. I 
think that the school system has taken a major step in turning 
schools around by using the transformation process. I think 
that you have heard about them and in Ms. Cafritz' 
description--so I won't belabor it, but as a parent in a 
transformation school, I know the difference that it has made. 
It has been immediate, and it has been what I perceive to be a 
useful way to track how one spends Federal and local dollars.
    I, frankly, believe that is a far better investment for the 
country. I would wonder if I was sitting out in California, why 
would I be putting money in the D.C. schools to go to private 
schools? That would just not make sense to me.
    Many of the parents with whom I speak fear that public 
education is fast becoming a nuisance to some of our elected 
leaders. We feel like our schools are being abandoned, and 
relegated to the category of just another human service. Recent 
statements of voucher supporters encouraging residents to pull 
their children out of the city's public schools to place them 
in private or parochial schools in and outside of the District 
sends the signal that they have just given up.
    The suggestion has even been made that vouchers will 
engender competition. Well, if our public schools were as well-
funded as some of the city's private schools, I might agree. 
However, the very folk who tell us this have never fully funded 
a budget for the D.C. public schools. Just like doctors take an 
oath, I believe it is also the duty of elected leadership, 
local and national, to first do no harm.
    I would suggest that vouchers do not address, much less 
meet, the most urgent needs born by District school students. 
Our facilities are falling apart. We are trying to address 
emergency repairs for, among other things, leaking roofs, 
archaic plumbing, and electrical systems. The list goes on. 
Vouchers will not fix broken schools. They will at best provide 
an additional opportunity for a handful of students by 
abandoning and neglecting the children remaining in the public 
schools.
    Public schools are the means by which we fulfill our 
responsibility to educate our children, and thereby prepare 
them to be responsible citizens and enable them to compete for 
jobs and other economic opportunities. Public schools, charter 
and traditional, must admit all children, while vouchers use 
public tax dollars to permit private schools to choose whatever 
students they want.
    I assure you that as much good things as have been said 
about the parochial schools, you can bet that our limited-
English proficiency children, children with behavior problems, 
low levels of academic achievement, and special education 
requirements will not move to the front of the list.
    Finally, I would only touch on the issues that people have 
tried to make this ideological. For me as a District resident, 
I have never been fully engaged in the political debate over 
ideology or not--you know, my focus has always been 
educational.
    But I will tell you, as a lifelong resident of this city, 
there are a few reasons--and I am just going to put this out 
there--why people in the neighborhood call this the ``last 
plantation.'' I say this not disrespectfully, but as our 
``overseers in Congress,'' the people in my neighborhood really 
resent when the Congress disregards what the people in this 
community want for its children. The overwhelming majority of 
the people in this community are against vouchers--there will 
always be disagreements, but I would hope that public policy is 
based on most often what a community wants and not what outside 
people want.
    [The prepared statement of Ms. Toyer follows:]

    [GRAPHIC] [TIFF OMITTED] T8196.068
    
    [GRAPHIC] [TIFF OMITTED] T8196.069
    
    [GRAPHIC] [TIFF OMITTED] T8196.070
    
    [GRAPHIC] [TIFF OMITTED] T8196.071
    
    [GRAPHIC] [TIFF OMITTED] T8196.072
    
    [GRAPHIC] [TIFF OMITTED] T8196.073
    
    Chairman Tom Davis. Thank you all very much.
    Ms. Toyer, I will respond to that. We heard the Mayor up 
here, the elected leader of the city, saying he wants it. I 
don't know what else we can do sitting here.
    Ms. Toyer. Mr. Mayor has not listened to his residents. He 
could not put out a list of groups that he has talked to. He 
has just not done that.
    Chairman Tom Davis. He is the elected leader of the city. 
Nobody is trying to impose anything. We are trying to give the 
city additional resources. If you don't want them, fine. We 
will go somewhere else. Are you satisfied with the city school 
system as it stands today?
    Ms. Toyer. I wouldn't say I was satisfied, and I would hope 
that the parents of students in Fairfax County aren't satisfied 
either, because I believe that gives everybody a free pass to 
do whatever they want with your children.
    Chairman Tom Davis. The difference between Fairfax and this 
city in terms of its test scores is a long way away. I think 
you will find approval ratings in Fairfax of its school system 
actually pretty high. It doesn't mean it is perfect, but they 
are improving. There are a lot of differences.
    Ms. Toyer. Absolutely, and I was going to bring that up. I 
don't think we can compare them in that regard.
    Chairman Tom Davis. You are the one that brought up the 
comparison, not me.
    Ms. Toyer. What I said was, I didn't think they were 
satisfied. I would think that the PTA president and the 
teacher--I raised Fairfax because no parent that is interested 
in their child's education is willing to sit back and say, 
``Oh, you are doing everything.'' It can't be that way.
    Chairman Tom Davis. You are not satisfied. I am not 
satisfied, and we are trying to explore ways to help the 
children of the city. That is what this is all about. It is not 
trying to be a testy exchange or anything else; we are just 
trying to look for ways.
    We have heard the Mayor come forward, we've heard council 
member Chavous, an elected leader, we have heard Ms. Cooper 
Cafritz, an elected leader, give a different perspective than 
you, in all fairness. Ms. Norton gives a different perspective, 
and she is an elected leader. We try to sort it out.
    This is hardly an assault on home rule, as the Washington 
Post said. These are ideas in public play at this point, and we 
are trying in this committee, which is the Congress--the 
Constitution has given us some authority on this issue to look 
at it and sort it out. We are going to try to look at it 
together.
    Mr. Lartigue, let me ask you, what kind of regulations 
would you like to see in a school choice program?
    Mr. Lartigue. You have to remember what the goal is. If the 
goal is to handicap the schools, then obviously you put as many 
regulations as you want. If the goal is to offer as many 
possible choices, then the regulations should be limited.
    Now, something that I think would be reasonable, what I 
believe--it is what I believe is going on in Colorado, where 
only the students who receive the vouchers are tested. Some 
private schools have said they would be willing to accept that 
and some others would not, but I think that would be a 
reasonable regulation.
    Chairman Tom Davis. Do you think there ought to be an 
accreditation requirement for schools that vouchers could go 
to.
    Mr. Lartigue. My understanding is that private schools 
already have an accreditation process. If you want to add 
something on top of that----
    Chairman Tom Davis. I am not trying to handicap, but I am 
trying to make sure, if we are spending this money in an area, 
that there are certain levels. I'm just asking for your 
opinion.
    Mr. Lartigue. Sure. That is a good minimum requirement.
    Chairman Tom Davis. We are trying to wrestle with an issue 
here and see how it might work. That is what I am trying to do.
    Dr. Ladd, let me ask you, one thing that surprises me is 
that a lot of times there is a difference, to some extent, 
between public school kids and private school in the sense that 
parents who send their kids to private school have put money 
out of their own pocket.
    My experience has been, and I don't know what it globally 
is, that you have a higher level of parental involvement at the 
private school level than you do at the public school level.
    Is that not your observation, or do you disagree with that, 
on average? My kids are in public school. All three of them 
have gone through the Fairfax Public School. We have a high 
degree of involvement in our kids' education. But on balance, 
we find out that it may be a little higher.
    Ms. Ladd. That is fully consistent with a lot of the 
evidence, and part of that parental involvement is coming 
because you have students from higher-income families in 
general in those private schools, and kids are motivated to go 
to college.
    I don't blame other families for wanting to put their 
children in such schools. We all want to do that. There is a 
question of how many of those higher-income families there are 
around to spread among the thousands and thousands of lower-
income children.
    The schools you are familiar with are probably not the 
typical ones that voucher-bearing students from Washington 
would go----
    Chairman Tom Davis. Actually, I am familiar with a pretty 
broad array of them. You would be surprised, I get around.
    My question is, if you have a high degree of parental 
involvement in private schools, you are still telling me there 
is no difference, test-scorewise?
    Ms. Ladd. I am telling you what the evidence suggests. 
Given those students who were given vouchers and could select 
private schools in New York City, Dayton, Washington, DC----
    Chairman Tom Davis. So that is on the voucher level?
    Ms. Ladd. Definitely it's on the voucher level. Yes. It is 
important those studies are voucher studies, because that is 
what you are talking about now.
    There is no doubt that achievement in many private schools 
is higher. The issue is, is that the result of the sorts of 
people who have been able to afford to go to those private 
schools, or is it the result of those private schools being 
more effective than the public schools?
    Chairman Tom Davis. I take it your solution for D.C. on a 
quick basis would be just put up more charters and more choice, 
as opposed to trying to put money into a public school system 
that by all intents and appearances can't correct itself 
overnight?
    Ms. Ladd. No, I am not for just putting more money into 
charters. I have not studied the D.C. system. In fact, most of 
my research right now deals with teacher quality. I was 
interested in the comments that were made about the 
transformation schools, and the reason that you can't go 
forward too fast with that model is because of personnel 
issues. Getting high quality teachers into urban school 
districts is extremely important.
    Chairman Tom Davis. My question is, for the kid that is 
going to be a third-grader next year and will never get another 
crack at being in third grade in their life, to try to improve 
their options right now in the city. I think we can agree that, 
by and large, we would like to do that.
    What would be your solution? Vouchers you don't think work 
under that circumstance? Clearly, public schools in the city, 
some of them by every objective criteria are a failure. So 
what's the solution?
    Ms. Ladd. That's right. It is not clear that vouchers would 
solve the problem, and certainly not for the third-grader who 
is in school now. By the time you got a voucher system up and 
running, and if it really is going to be a federally funded 
pilot program, getting all the evaluation program set in place 
before the program goes in, plus you are talking----
    Chairman Tom Davis. We are talking about 4,000 open spots, 
for example, in private schools in the city. I have not looked 
at it, and I don't know what the relative teaching quality is 
in these schools. We didn't ask you to look at that before you 
came here.
    If the parents wanted to choose to send to one of those 
schools, as opposed to the school they are at--I don't know the 
difference--that would be a solution? But even that, you are 
not comfortable with that solution?
    Ms. Ladd. Even that, if you throw that out as a solution. 
What's going to happen----
    Chairman Tom Davis. For the next year, or the following 
year. We will agree vouchers are not a long-term solution.
    Ms. Ladd. What is going to happen is many of those families 
who start looking into those schools are going to find out 
that, even with the voucher, they are not going to be accepted 
by those schools, they are not going to be able to afford the 
transportation to go to those schools, or they are not going to 
be able to afford the additional tuition and additional 
expense.
    Chairman Tom Davis. What if we cover all that? What if we 
make the voucher $6,500, which is above the median----
    Ms. Ladd. That is the financial part. What about the fact 
that those schools, in many cases, have incentives not to 
accept disadvantaged students? Their reputation depends in part 
on having a disciplined student body, having motivated parents. 
I don't mean to imply----
    Chairman Tom Davis. Legitimate concerns. You are not saying 
the parents aren't motivated. I'm just trying to take this to 
the nth degree. What if we could solve that?
    Ms. Ladd. How do you solve that problem?
    Chairman Tom Davis. What if schools say, we want these 
kids. We have vacancies. We want these kids. What is your 
objection then? Those are legitimate concerns you raise, but--
--
    Ms. Ladd. So--and what is the goal here? Is choice the goal 
or is raising the achievement of students the goal?
    Chairman Tom Davis. Giving that kid a good third grade 
education where they can learn to move ahead.
    Ms. Ladd. That is the goal, giving the kid a good third 
grade? So it is not just choice?
    Chairman Tom Davis. Absolutely not.
    Ms. Ladd. What the studies from New York, Washington, DC, 
and Dayton say is that a lot of those children--on average, the 
children going to private schools, the ones that can afford to 
do so with vouchers, are not going to be----
    Chairman Tom Davis. What I am asking is if we can solve 
these other problems you are talking about, I was just asking 
theoretically--or are you so rigid about not wanting vouchers--
you solve those problems at that point and they get a better 
third year, is there anything wrong with that?
    Ms. Ladd. Just so you know my position, I am not adamantly 
opposed to vouchers. If the starting point were a whole program 
designed to improve education, and vouchers were a safety valve 
for a very small percentage, but a part of a program that might 
be OK. But vouchers as the solution to any problem, that is 
what is crazy.
    Chairman Tom Davis. I agree with that. I'm just trying to 
find out--it can be part of a larger-scale program. That is all 
I am trying to get from you is to look at that.
    It may not work in Cleveland, and I don't know if it works 
in these other areas or not. That doesn't mean we can't 
construct something that may work.
    You have raised some things that I think are very 
legitimate concerns.
    Ms. Ladd. One final comment, Chairman Davis, if I may. 
Consider some of the constraints you may need to put on private 
schools for that to work--forget the student mix issues. You 
would want those private schools to accept people through a 
lottery. You would want them not to be able to charge any 
additional tuition.
    Those are the sorts of requirements that you already have 
on charter schools. So why go the private school route? You 
already have those sorts of schools with charters, plus you 
have the public charter, which in principle provides some 
public accountability. In fact, I think accountability may not 
be strong enough for the charter schools.
    Chairman Tom Davis. I am going to yield to Ms. Norton.
    My response to that very briefly would be that because some 
charters work and some don't. That is the reality, any time you 
do something experimentally. If you have a private school 
system that seems to be working, that has been documented as 
working, why not?
    Ms. Ladd. Can I respond?
    Chairman Tom Davis. Sure.
    Ms. Ladd. The part of the private school system that is 
working, to the extent it has been documented independently of 
vouchers, is the parochial system, the long-established 
parochial system. What is interesting is when we look at 
countries like Chile, that have had vouchers for a long period 
of time--which is not what you are recommending right now, but 
once you start down this track that is where you are headed--
what happens is the new schools that are set up in response to 
the voucher payments, the sorts of schools that some of my 
colleagues at this table would like to be established, are, in 
general, quite poor schools.
    The evidence from Chile suggests that the Catholic schools 
that have been around for a while do a pretty good job in terms 
of student achievement, but the new schools that were set up in 
response were very poor.
    Chairman Tom Davis. I think you have described legitimate 
parameters and concerns. That is what we are trying to wrestle 
with.
    I am not an ideologue. I have traditionally voted against 
using Federal dollars for vouchers. I have great concern about 
that. But in this case, we have a responsibility to look at it. 
We have parents who are interested in it, we have a Mayor whose 
interested in it; so we are going to give that a very healthy 
look, at this point, and see what we might be able to 
construct. I think your testimony has been very instructive and 
helpful. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. What we have to find 
out is if we have District residents who are interested in 
looking at it. In that regard, I must say, Ms. Cafritz, you are 
not the manifestation of home rule.
    Ms. Cafritz. Thank you.
    Ms. Norton. Home rule is when you have the two branches of 
government, of which you are not even one, to agree on a policy 
issue.
    I am not the manifestation of home rule. The Mayor is not 
the manifestation of home rule. Even the Council, unanimously, 
is not the manifestation of home rule. It takes both branches 
of government to manifest home rule. This is not like a French 
king who says, the State, that is me.
    Ms. Cafritz. They were here today saying the same thing, 
that is why I said that.
    Ms. Norton. They were not here saying it, on behalf of the 
majority of the Council. The chair of the Council was very 
clear that the latest resolution from the Council because 
against vouchers. So was, if I may say so, the latest 
resolution of the school board.
    Ms. Cafritz. I recited that in my remarks.
    Ms. Norton. You are here, then, in your private capacity.
    Ms. Cafritz. I said that in my opening remarks.
    Ms. Norton. You used, however, the letterhead of the school 
board. The school board, I take it, is where it was always as 
of that resolution: it still opposes vouchers. Is that true or 
not?
    Ms. Cafritz. We are readdressing the issue, as I said in my 
testimony, at our May meeting. So the answer to that is, I do 
not know.
    Ms. Norton. The answer to that is, it has not changed yet, 
Ms. Cafritz.
    Ms. Cafritz. No.
    Ms. Norton. It seems to me a hedging of that answer.
    Ms. Cafritz. I guess you are the president of the school 
board, too.
    Ms. Norton. Particularly after you wrote a piece in the 
Washington Post without even indicating that you were speaking 
for yourself. You ought to be very careful from here on in as 
to how you speak for your board, when so far you are out there 
by yourself, and there is a written resolution on the record.
    It is very important for a public official to be real 
clear.
    Ms. Cafritz. I have spoken at length with my board members 
individually.
    Ms. Norton. They have not spoken at length yet. You are not 
home rule and you are not even the school board.
    Ms. Cafritz, you must have shared my concern to hear all 
the people--nobody at the table defended the D.C. public 
schools. I thought the D.C. public schools were doing better. 
Yet we hear, these awful public schools. The chairman has said 
it, the Under Secretary said it, ``Terrible schools, everybody 
ought to get out of them.'' Even the school board said it.
    Isn't there any defense to be made of the D.C. public 
schools? Have you done nothing to improve the D.C. public 
schools? If there is a defense, I think you ought to make it on 
the record now, because I don't like the way the record has 
been left, and I hope it is better than how it appeared.
    Ms. Cafritz. Thank you for the opportunity.
    The chairman will definitely receive all of the correct 
information on public schools. However, that will not stop the 
local bashing of public schools because there are elections to 
be won.
    To start with, Mr. Lartigue, 99 percent of our books were 
delivered on time.
    Ms. Norton. If I may say in your defense on these books, if 
you did have them delivered on time, you have my 
congratulations; because one of the main reasons you can't get 
your books done on time is that you are forced to have--our 
budget process makes it almost impossible for you to run the 
schools.
    Schools end in June; they start in September. Our budget 
year ends September 30. Sometimes you have had your budget over 
here until October--I'm sorry, December and January, this last 
year was expected. Yet, you are expected to order books and get 
them done on time. That is the last time you should be held 
accountable for.
    Ms. Cafritz. You are absolutely correct. The same thing 
happens with our grant funds, they go to Gandhi, they go to the 
City Council, we get them at least no earlier than 5 months 
after the program starts.
    Additionally, we developed a schedule A. On the dais, Kevin 
Chavous said it was the first one they have seen in 20 years, 
and we are taking care of getting rid of those employees, none 
of whom were ghost, by the way.
    Ms. Norton. That was obviously at a time when they had to 
make budget cuts. That was very troublesome to hear. How far 
along are you in getting rid of the excess employees?
    Ms. Cafritz. We have so many we have to get rid of, that I 
would say, we are about halfway there. Our budget that the City 
Council is sending up there is going to require that more 
hundreds be released. So with the cutting--we got cut last 
September, and it has been all through the year.
    Ms. Norton. You would be less cut if you didn't have those 
excess employees.
    Ms. Cafritz. It is hard to say. Well, the excess employees, 
as they are referred to--there are only about 100 people who 
are over the number of slots we had. Those 100 people came from 
transformation schools, because in order to do transformation 
schools right, you have to get new employees. But there is no 
mechanism for getting rid of the old ones because they are in 
the union and they have to be placed--they have seniority, most 
of them, and they have to be placed in other jobs somewhere.
    If you want to talk about the root of the problem and some 
things that we can do to solve it, that is the root of that 
problem, in all truth.
    Ms. Norton. Obviously, I know you are cleaning it up.
    Ms. Cafritz. You said I would have a chance to give a 
defense of----
    Ms. Norton. I thought you said you were going to send it up 
here.
    Ms. Cafritz. No. I think some of it definitely needs to be 
on the record, OK?
    Ms. Norton. I would love to have it on the record, if you 
can do it briefly.
    Ms. Cafritz. As far as charter schools are concerned, we 
have cooperative relationships with a number of charter 
schools. In fact, we are working with David Domenici's 
schools----
    Ms. Norton. Ms. Cafritz, my question was that it seemed to 
me that there was even unfair criticism of the progress of the 
D.C. public schools. That would include charters and public 
schools. We were told they were the worst in the country.
    Ms. Cafritz. That is exactly right. That is what I am 
attempting to address. If you would rather not hear it, that is 
all right, I will submit it.
    Ms. Norton. I want to hear about the D.C. public schools. 
They didn't pick out charters or the others, they just said you 
got $11,000 per student, the worst in the country.
    Ms. Cafritz. That is inaccurate in and of itself.
    Ms. Norton. They said no improvement in the D.C. public 
schools. Why don't you put some of that on the record.
    Ms. Cafritz. As I said in my testimony, we have had 
increased test scores in most of our grades, 11 of them. We 
have improved more than charter schools in our increases.
    We have fewer failing schools proportionately, as I said in 
my testimony; 54 percent of charter schools are in a failing 
category based on the No Child Left Behind Act information. OK? 
We are improving faster than any other kind of choice. Anyone 
who is interested in kids, and knows what they are doing, 
doesn't need competition. You are not motivated by competition, 
you are motivated by what children need.
    We are so far behind in the District of Columbia in every 
way with regard to our children, allowing them to live in 
poverty or whatever, that we should be willing to take any help 
that we can get to educate them faster, period, pure and 
simple.
    The school system is educating kids faster than any other 
system. Our programs are working. The City Council has cut out 
support for transformation schools. They sat here and told you 
they had supported it. That doesn't exist anymore. Our teacher 
induction money has been cut, professional development money 
has been cut.
    So, yes, we are fixing things; but let us get serious. Let 
us get to serious work, and let us see how we can fix the 
entire thing as fast as we can for these kids.
    Ms. Norton. I will move on to Dr. Ladd, now.
    Of course, to the extent that our public officials demand 
money for private schools, that money is not going to go to 
transformation schools, that money is not going to go to 
charter schools.
    Ms. Cafritz. It is not going, anyway. That is my point.
    Ms. Norton. If we stood up and said that's where the money 
should go----
    Ms. Cafritz. I have stood up for 2\1/2\ years, but it still 
hasn't gone.
    Ms. Norton. In fact, I heard you say since they going to 
put it on us anyway, why don't we just collapse?
    Ms. Cafritz. You never heard me say that.
    Ms. Norton. The District would be colonized already.
    Dr. Ladd, you heard me ask the Mayor about his rendition of 
a study that showed stellar improvement in the Washington, DC, 
schools for these children, 10 percentage points increases. I 
then told him that the study, the 14 studies, of which this was 
one, did not show that.
    Would you clarify whether Washington, DC, was included and 
whether Washington, DC, had these 10-point improvements in the 
parochial schools?
    Ms. Ladd. Yes, I will try to do that.
    The 14 studies you were referring to were studies related 
to the effects of competition from the private schools on the 
public school system, so that is a slightly different issue.
    But referring specifically to that 10 percent increase, and 
I think he probably meant to say a 9 percent increase, I think 
what he is probably referring to there is the second-year 
findings from the Peterson studies out of Harvard by Professor 
Peterson for Washington, DC.
    The interesting thing about the Washington, DC----
    Ms. Norton. He says it was Howell and Wolf.
    Ms. Ladd. Part of the Peterson group. Those are students of 
Peterson's. It is Peterson and his colleagues.
    By the way, the latest summary of those studies are in a 
book that was published by Brookings just last year by Howell 
and Peterson. That is the latest results to turn to.
    The reason I mention that is that the reference he made is 
to the second-year results in Washington, DC, for Black 
students.
    The first-year results showed no benefits, negative effects 
in the higher grades, the seventh and eighth grades. The 
second-year results for some strange reason, it is probably 
just a statistical fluke, showed large gains, a little over 9 
percentile points in Washington, DC.
    The important fact is, though, when you look at the third-
year results, the ones that are in that book that I just 
mentioned and which are part of this same studies, the results 
are zero for African American students, sort of over the 3 
years of being in the program. Those are the most recent and 
best findings from the Peterson, Wolf, Howell and other 
studies.
    Ms. Norton. I just want to correct Mr. Lartigue, who said 
the teachers union had not been involved in the Federal Charter 
School Bill that was passed here for the District of Columbia 
on a home-rule basis.
    Al Shanker himself, who was then the late President of the 
teachers union----
    Mr. Lartigue. The Washington Teachers Union, that is what I 
meant to say.
    Ms. Norton. If I can finish, the American Federation of 
Teachers and the Washington Teachers Union--Al Shanker would 
not be involved if his own local was not involved. Both Al 
Shanker and the local Washington Teachers Union were one of the 
groups that sat with us on charter schools.
    Mr. Lartigue. That has nothing to do with what I just said, 
though. I said the Washington Teachers Union was opposed.
    Ms. Norton. I am just correcting what you said earlier. The 
teachers union helped design our open Charter School Statute. I 
just want you to know that, since that was in your testimony.
    I am almost through, Mr. Chairman. I was very amused by 
your testimony, Ms. Pinkney-Hackett, and very pleased that you 
have two sons in the D.C. public schools. But I want to tell 
you--and I'm sure all the shock and awe that you spoke about is 
recognizably true. But you haven't seen any shock and awe yet 
until you see the shock and awe that is going to be there for 
the people trying to win the lottery by getting one of those 
scholarships. That puts students in precisely the same position 
you are. It is an ever-expanding expectation, and all vouchers 
do is add one more level of shock and awe to the mix.
    Finally, may I ask, Mr. Chairman, that a set of documents 
be put in the record, including the council and school board 
resolutions opposing vouchers. I know of no local organizations 
that represent anybody in the District who favor vouchers. 
There is a local PTA opposed, local Parents United, and a 
number of others.
    Chairman Tom Davis. Without objection, the resolutions will 
be put into the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8196.074
    
    [GRAPHIC] [TIFF OMITTED] T8196.075
    
    [GRAPHIC] [TIFF OMITTED] T8196.076
    
    [GRAPHIC] [TIFF OMITTED] T8196.077
    
    [GRAPHIC] [TIFF OMITTED] T8196.078
    
    [GRAPHIC] [TIFF OMITTED] T8196.079
    
    [GRAPHIC] [TIFF OMITTED] T8196.135
    
    [GRAPHIC] [TIFF OMITTED] T8196.136
    
    [GRAPHIC] [TIFF OMITTED] T8196.137
    
    [GRAPHIC] [TIFF OMITTED] T8196.138
    
    [GRAPHIC] [TIFF OMITTED] T8196.139
    
    [GRAPHIC] [TIFF OMITTED] T8196.140
    
    [GRAPHIC] [TIFF OMITTED] T8196.141
    
    [GRAPHIC] [TIFF OMITTED] T8196.142
    
    [GRAPHIC] [TIFF OMITTED] T8196.143
    
    [GRAPHIC] [TIFF OMITTED] T8196.144
    
    [GRAPHIC] [TIFF OMITTED] T8196.145
    
    [GRAPHIC] [TIFF OMITTED] T8196.146
    
    [GRAPHIC] [TIFF OMITTED] T8196.147
    
    [GRAPHIC] [TIFF OMITTED] T8196.148
    
    [GRAPHIC] [TIFF OMITTED] T8196.149
    
    [GRAPHIC] [TIFF OMITTED] T8196.150
    
    [GRAPHIC] [TIFF OMITTED] T8196.151
    
    [GRAPHIC] [TIFF OMITTED] T8196.152
    
    [GRAPHIC] [TIFF OMITTED] T8196.153
    
    [GRAPHIC] [TIFF OMITTED] T8196.154
    
    [GRAPHIC] [TIFF OMITTED] T8196.155
    
    [GRAPHIC] [TIFF OMITTED] T8196.156
    
    [GRAPHIC] [TIFF OMITTED] T8196.157
    
    [GRAPHIC] [TIFF OMITTED] T8196.158
    
    [GRAPHIC] [TIFF OMITTED] T8196.159
    
    [GRAPHIC] [TIFF OMITTED] T8196.160
    
    [GRAPHIC] [TIFF OMITTED] T8196.161
    
    [GRAPHIC] [TIFF OMITTED] T8196.162
    
    [GRAPHIC] [TIFF OMITTED] T8196.163
    
    [GRAPHIC] [TIFF OMITTED] T8196.164
    
    [GRAPHIC] [TIFF OMITTED] T8196.165
    
    [GRAPHIC] [TIFF OMITTED] T8196.166
    
    [GRAPHIC] [TIFF OMITTED] T8196.167
    
    [GRAPHIC] [TIFF OMITTED] T8196.168
    
    [GRAPHIC] [TIFF OMITTED] T8196.169
    
    [GRAPHIC] [TIFF OMITTED] T8196.170
    
    [GRAPHIC] [TIFF OMITTED] T8196.171
    
    [GRAPHIC] [TIFF OMITTED] T8196.172
    
    [GRAPHIC] [TIFF OMITTED] T8196.173
    
    [GRAPHIC] [TIFF OMITTED] T8196.174
    
    [GRAPHIC] [TIFF OMITTED] T8196.175
    
    [GRAPHIC] [TIFF OMITTED] T8196.176
    
    [GRAPHIC] [TIFF OMITTED] T8196.177
    
    [GRAPHIC] [TIFF OMITTED] T8196.178
    
    [GRAPHIC] [TIFF OMITTED] T8196.090
    
    [GRAPHIC] [TIFF OMITTED] T8196.091
    
    [GRAPHIC] [TIFF OMITTED] T8196.092
    
    [GRAPHIC] [TIFF OMITTED] T8196.093
    
    [GRAPHIC] [TIFF OMITTED] T8196.094
    
    [GRAPHIC] [TIFF OMITTED] T8196.095
    
    [GRAPHIC] [TIFF OMITTED] T8196.096
    
    [GRAPHIC] [TIFF OMITTED] T8196.097
    
    [GRAPHIC] [TIFF OMITTED] T8196.098
    
    [GRAPHIC] [TIFF OMITTED] T8196.099
    
    [GRAPHIC] [TIFF OMITTED] T8196.100
    
    [GRAPHIC] [TIFF OMITTED] T8196.101
    
    [GRAPHIC] [TIFF OMITTED] T8196.102
    
    [GRAPHIC] [TIFF OMITTED] T8196.103
    
    [GRAPHIC] [TIFF OMITTED] T8196.104
    
    [GRAPHIC] [TIFF OMITTED] T8196.105
    
    [GRAPHIC] [TIFF OMITTED] T8196.106
    
    [GRAPHIC] [TIFF OMITTED] T8196.107
    
    [GRAPHIC] [TIFF OMITTED] T8196.108
    
    [GRAPHIC] [TIFF OMITTED] T8196.109
    
    Chairman Tom Davis. Just couple of clean-up questions.
    Ms. Baker, is the D.C. Charter School Board now applying 
for grants? Have you been successful at getting any Federal 
grants?
    Ms. Baker. We have not seen our role as applying for 
grants, per say. I think with the demise of the Charter 
Resource Center and with some information that has come to us 
recently, we may very well move in that direction in order to 
give technical assistance and support.
    We walk sort of a thin line, in terms of----
    Chairman Tom Davis. This is something we want to look at, 
because we want to make sure, at a minimum, the school system 
for the public schools and the charters are getting a maximum 
amount of grants.
    Ms. Baker. We assisted with some of the professional 
support for the public schools so they could apply for grants, 
because each one is an LEA.
    In the first part of the day, there was a question asked 
here as to whether any charter schools had ever been closed 
because of academic achievement. So I made a phone call, and I 
did get some information about a number--not of those 
percentages, but 9 percent of the school closures in the Nation 
have been attributed to poor academic achievement. So academic 
achievement is one of the reasons that schools are being 
closed, and it is very much a part of what we do in terms of 
looking at academic achievement on an annual basis.
    With the law that you have written, academic achievement 
can only be used in the 5th year. So we monitor annually, and 
we can make those decisions at year 5 on academic achievement.
    Chairman Tom Davis. Ms. Pinkney-Hackett, let me thank you 
again for coming. I hope your kids are proud of you standing up 
for them. Do you think there are a lot of other parents who 
feel like you?
    Ms. Pinkney-Hackett. Yes, there are, sir. Ms. Norton said 
that no parent organization has come forth, because PTA has a 
different stance. The national PTA and D.C. PTA are against 
vouchers.
    But, unfortunately for them, they don't represent what 
parents in the D.C. school system truly want. D.C. PTA only has 
about 2,000 parents enrolled.
    Ms. Norton. Who does represent what parents truly want?
    Chairman Tom Davis. I yield to Ms. Norton.
    Ms. Norton. You are right that it is hard for any 
organization to speak for everybody, but who does represent 
what parents want better than Parents United or the PTA?
    Ms. Pinkney-Hackett. Let me say, it is the parents 
themselves. Even with PTA, my PTA at Jefferson, we support 
school choice. We are part of D.C. PTA. Most of them, when they 
make a choice like that----
    Chairman Tom Davis. Are they teachers?
    Ms. Pinkney-Hackett. No. Most do not even have children 
school age. Some of them who are D.C. PTA board members have 
already exercised their right for school choice because they 
have children in private schools. The treasurer has a child in 
DeMatha High School. One of the vice presidents last year had 
two children, one child in private school and two children in 
public school.
    Chairman Tom Davis. They don't want you to have the same 
choice they have because maybe economically they are better off 
than you.
    Ms. Pinkney-Hackett. You would be surprised at how much 
support I'm getting from people who are on the board of D.C. 
PTA. They may have that stance, so may be there is no 
organization to speak for all of the parents, but there are 
parents who want school choice. Perhaps we need to go to the 
parents.
    Ms. Norton. Are you willingly still in the D.C. public 
schools or would you like to be outside of the D.C. public 
schools in a voucher now?
    Ms. Pinkney-Hackett. Let me say this, I am willingly in 
D.C. public schools because I grew up in D.C. public schools. I 
like to have faith that they are doing a great job to educate 
our children.
    But for those parents who are not able to get out of 
boundary--Jefferson is are not my neighborhood schools. It is 
just fortunate I am one of the parents who are able to place 
their children out of boundary. But for the parents who are not 
as fortunate, yes, I would like them to see them have another 
choice.
    No, that voucher will not take care of all the problems, 
but it is one more option. If we can help 1,000 or 2,000 more 
parents, I suggest we do it.
    Chairman Tom Davis. Let thank you very much for that. Ms. 
Toyer, thank you.
    Ms. Norton. Even if the money might go to transformation 
schools and to charter schools? This is a zero sum game, Ms. 
Pinkney-Hackett. The notion you heard here about, this is new 
money, your children are in the D.C. public schools and the 
only word for what has happened to the No Child Left Behind 
Bill, which applies directly to you, is defunded.
    Chairman Tom Davis. Let me say I am not sure I agree that 
it is a zero sum game. That is part of the argument. But we are 
going to try to work together. Ms. Norton and I have worked 
through a lot of battles. We usually don't start off on the 
same page, but we are practical. We see some resources out 
there. The system clearly needs it.
    I think you all have been very helpful. Ms. Cooper Cafritz, 
thank you for your courage in speaking up here today. There is 
a big diversity of opinion in the city, we understand that. We 
understand where the city has been traditionally and 
officially. We are looking to get some kind of solution for the 
kids. All of you have been very helpful as we try to shape it.
    I don't know if we will do a bill, if we will have direct 
grants to the Federal Government. The decision will work out 
independently of what we do. We just don't know yet how we are 
going to wrestle with it, but we are going to put your comments 
together and, from my perspective, try to figure out something. 
We will be sitting down with some of the key stakeholders. Just 
to let you know, you all played a very important part with 
this.
    Ms. Norton. Mr. Chairman, let us just hope it is more than 
the $75 million that the administration has on the table now. I 
want to note on the record, for all the talk about extra 
resources, the Federal Government was at the table and no more 
than $75 million divided eight ways among school districts ever 
came out of everybody's mouth. I do not yet see good faith on 
resources.
    Thank you very much, all of you, for coming.
    Chairman Tom Davis. Maybe that is what it takes to bring 
you on board on this. But thank you. You have played a very key 
role, all of you. I appreciate the testimony and for you being 
here and staying with us.
    Ms. Cafritz. Congressman, can I just say one more thing I 
think you need to have on the record? You talked about this 
being a temporary program. I think--because it is not a 
permanent solution. I agree. But I think with every child you 
give a voucher to, you have to make a commitment that the money 
is going to be there to carry that child through his or her 
completion.
    Chairman Tom Davis. Right. We need a strong public school 
system with a lot of choices and a lot of diversity within the 
system. Vouchers are--when we have a school system in distress, 
it is certainly a short-term solution to allow that kid who 
will only be in third grade one time, to give him a year that 
is worthwhile. That is kind of my point. I thank all of you 
again.
    Ms. Toyer. Can I just add, Mr. Davis, and it has not been 
raised, that when these 2,000 children, 1,000 or whatever, are 
serviced, that it does impact on individual local schools, 
because they are not going to all come from one school. Because 
of the way the school system is funded on a formula basis, and 
then how much the superintendents give us is based on the 
number of children you have----
    Chairman Tom Davis. That would not be the way it works.
    Ms. Toyer. It has to be, because that is how the city 
legislation works. All I am saying is when we lose children, 
local schools will suffer. They will have to make the decision 
as to whether or not they are going to have a science teacher, 
a math teacher, or whatever.
    Chairman Tom Davis. Let me get a word in here, OK? I am the 
Chair. One of the things we talked about today was that this 
would not count against the allocation. If we solve that, maybe 
that would solve some of your concern. I appreciate your 
bringing that up. It is obviously something we are concerned 
about as we move ahead.
    Thank you all very much. The hearing is adjourned.
    [Whereupon, at 4:15 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T8196.111

[GRAPHIC] [TIFF OMITTED] T8196.112

[GRAPHIC] [TIFF OMITTED] T8196.113

[GRAPHIC] [TIFF OMITTED] T8196.114

[GRAPHIC] [TIFF OMITTED] T8196.115

[GRAPHIC] [TIFF OMITTED] T8196.116

[GRAPHIC] [TIFF OMITTED] T8196.117

[GRAPHIC] [TIFF OMITTED] T8196.118

[GRAPHIC] [TIFF OMITTED] T8196.119

[GRAPHIC] [TIFF OMITTED] T8196.120

[GRAPHIC] [TIFF OMITTED] T8196.121

[GRAPHIC] [TIFF OMITTED] T8196.122

[GRAPHIC] [TIFF OMITTED] T8196.123

[GRAPHIC] [TIFF OMITTED] T8196.124

[GRAPHIC] [TIFF OMITTED] T8196.125

[GRAPHIC] [TIFF OMITTED] T8196.126

[GRAPHIC] [TIFF OMITTED] T8196.127

[GRAPHIC] [TIFF OMITTED] T8196.128

[GRAPHIC] [TIFF OMITTED] T8196.129

[GRAPHIC] [TIFF OMITTED] T8196.130

[GRAPHIC] [TIFF OMITTED] T8196.131

[GRAPHIC] [TIFF OMITTED] T8196.132

[GRAPHIC] [TIFF OMITTED] T8196.133

[GRAPHIC] [TIFF OMITTED] T8196.134


</pre></body></html>
